<html>
<title> - PROTECTING RELIGIOUS FREEDOM: U.S. EFFORTS TO HOLD ACCOUNTABLE COUNTRIES OF PARTICULAR CONCERN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               PROTECTING RELIGIOUS FREEDOM: U.S. EFFORTS
                    TO HOLD ACCOUNTABLE COUNTRIES OF
                           PARTICULAR CONCERN

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2014

                               __________

                           Serial No. 113-194

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
88-022                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--5/20/14 
    

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Robert P. George, Ph.D., chairman, U.S. Commission on 
  International Religious Freedom................................     4
Mr. Kenneth E. Bowers, secretary, National Spiritual Assembly of 
  the Baha'is of the United States...............................    45
Mr. Amjad M. Khan, national director of public affairs, Ahmadiyya 
  Muslim Community USA...........................................    53
Pastor Bob Fu, founder and president, ChinaAid Association.......    69

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Robert P. George, Ph.D.: Prepared statement......................    12
Mr. Kenneth E. Bowers: Prepared statement........................    48
Mr. Amjad M. Khan: Prepared statement............................    57
Pastor Bob Fu: Prepared statement................................    73

                                APPENDIX

Hearing notice...................................................   104
Hearing minutes..................................................   105
Pastor Bob Fu: Report from 64 destroyed churches.................   106
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement from Dr. Maryann Cusimano Love.......................   110
  Statement from Mr. Matteo Mecacci..............................   117


                   PROTECTING RELIGIOUS FREEDOM: U.S.

                      EFFORTS TO HOLD ACCOUNTABLE

                    COUNTRIES OF PARTICULAR CONCERN

                              ----------                              


                         THURSDAY, MAY 22, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and I want 
to welcome all of you and thank you for being at this very 
important hearing and ongoing series of hearings concerning 
religious freedom, and with particular focus today on the 
Commission and some of the work that they have done, some of 
the outstanding and exemplary work they have done, and the 
state of religious freedom around the world.
    And we have some excellent witnesses who will be presenting 
testimony to the subcommittee. Hopefully it will be heard not 
just by Congress but also by offending countries and those who 
are on the bubble, about to be offending countries, but also by 
the executive branch which we hope will take clear note of what 
is said here, especially by our, like I said, very 
distinguished witnesses.
    The headlines are filled with examples of religious 
persecution. A 27-year-old expectant mother, Mrs. Ibrahim, is 
in prison and faces a death sentence today in Sudan because she 
refused to renounce her Christian faith. In like manner, Habila 
Adamu was shot in the head and left for dead, a man that I 
first met in September of last year when I was in Jos, a place 
in Nigeria where churches have been firebombed.
    I remember meeting with the archbishop there, Kaigama, who 
told me how he was working very closely with the imam and other 
top Muslim clerics to combat the persecution of Christians in 
particular, Muslims secondarily, who are not targeted as 
robustly as Christians, and unfortunately the situation in 
Nigeria as we all know with the recent abduction of the 
schoolgirls has gone from extremely bad to even worse.
    So here we are. We met with this man, Habila Adamu, who 
many of you have met. He testified before our subcommittee. And 
I will never forget when he told us that when the Boko Haram 
radical Islamists put the AK-47 to his nose and the top of part 
of his face, said that you renounce your belief in Jesus or 
else I will kill you, and you must convert to Islam, he said, I 
am ready to meet my Lord, and the man pulled the trigger and 
left him for dead.
    And he was quite disfigured by this attempted murder, this 
attempted assassination, but it was a clear, compelling example 
of courage, unbelievable courage, but also deep conviction in 
his religious beliefs which happen to be Christian.
    Anti-Semitism as well has resurfaced in many parts of the 
world. In some cases it never went away. And we are also seeing 
it now in Ukraine with a series of violent attacks following 
the ouster of former Prime Minister Yanukovych.
    Wednesday we received word that American pastor Saeed 
Abedini who is serving an 8-year sentence in Iran for his faith 
was severely beaten and returned to prison. He had been 
hospitalized due to internal bleeding from beatings previously 
received in prison. His wife, Naghmeh Abedini, testified before 
this committee, as well as before a committee convened by Frank 
Wolf, and begged that the administration make securing her 
husband's release a top priority.
    Tragically, many countries of the world are a long way from 
recognizing the human right of religious freedom set forth by 
Article 18 of both the Universal Declaration of Human Rights as 
well as the International Covenant on Civil and Political 
Rights. In the United States we claim religious freedom as the 
first freedom because of its placement at the top of the Bill 
of Rights enumerated in our Constitution and because of its 
foundational role in the life of a free and democratic nation.
    Religious freedom is a constant reminder to governments 
that their power is limited, that governments do not create 
rights but merely recognize them, and that a man or woman's 
first duty is to his or her well-formed conscience.
    The evidence bears out the importance of protecting and 
promoting religious freedom. As the Pew Research Center and 
Berkeley Center at Georgetown have shown, governments that 
protect and promote religious freedom have higher levels of 
social harmony. Just as importantly for national security, high 
observance of religious freedom is correlated with lower levels 
of religious extremism.
    In 1998, Congress had the foresight to make the protection 
and promotion of religious freedom a priority in U.S. foreign 
policy by creating an Ambassador-at-Large for Religious 
Freedom, the Office of International Religious Freedom at 
Department of State, which authors the international religious 
freedom reports on every country in the world, and the U.S. 
Commission on International Religious Freedom, with their 
watchdog report to Congress.
    Importantly, this landmark piece of legislation, the 
International Religious Freedom Act, authored by Chairman Frank 
Wolf of Virginia, created a system for naming and taking action 
against a Country of Particular Concern, the language that was 
included in the text, or as we call them, CPCs. Sixteen years 
later, the need for U.S. leadership on religious freedom could 
not be more critical, things have actually gotten worse in many 
parts of the world, but sadly the tools needed for the U.S. to 
lead are very lightly used.
    The administration recently announced its intention to 
appoint two new members to U.S. Commission on International 
Religious Freedom, but the post of Ambassador-at-Large is in 
its seventh month of vacancy. As a matter of fact, for more 
than half of President Obama's tenure in office there has been 
no Ambassador-at-Large. A revelation, in my opinion, of 
priorities. The post, as I said, has been empty for a long 
time.
    Despite the fact that IRFA called for an annual review of 
CPC designations, the administration has not named CPCs since 
2011. That is an outrage. There are countries, and I know the 
Commission has made recommendations for some eight countries 
that ought to be added to the list including the Government of 
Vietnam, and yet they are not, and they have not made 
designations since 2011.
    What few Presidential actions, like sanctions, that have 
been taken in correlation with the 2011 CPC designation have 
now lapsed. History has shown that when the U.S. makes 
religious freedom a priority and that priority is conveyed to a 
Country of Particular Concern we have seen conditions have 
changed with minimal harm to security or economic cooperation.
    For instance, CPC designation worked as intended with 
Vietnam until it was removed prematurely, and that was under 
the Bush administration. In 2004, Bush designated Vietnam a CPC 
country as part of a larger bilateral relationship. Vietnam did 
take positive steps. And I traveled to Vietnam on a few 
occasions during that time period, and there seemed to be an 
easing and it was done in correlation with the bilateral trade 
agreement, but right after that they reverted right back to 
form and the repression has gotten worse ever since. It is time 
to redesignate Vietnam.
    Since 2006 USCIRF has made a compelling case why Vietnam 
should be designated as a CPC. I have read your reports. They 
are outstanding. Very incisive, and why that designation would 
again produce results and why it is in the U.S. interest to 
prioritize religious freedom in that bilateral relationship. 
Seven years later we are still waiting.
    Today's hearing will take a close look at the ongoing need 
for the United States to actively pursue religious freedom as a 
priority as intended by Congress and as articulated in the 
International Religious Freedom Act. I would like to yield to 
my good friend and colleague, Mr. Meadows, for any comments he 
might have.
    Mr. Meadows. Thank you, Mr. Chairman, and thank you for 
your continued work on this. I will keep my comments very 
brief. We have two panels, we have votes coming up, and so we 
will get obviously to you first, Dr. George. Thank you for your 
work. Thank you for your passion for your work, And I look 
forward to working with you in a real way.
    I do want to share one personal story because I think it 
goes to the heart of what we are talking about here. Many of 
you that are here listening to this today are fighting the 
fight every day for religious freedom. You are here because you 
care, because you see the injustice of it.
    And yet last night I found a very interesting dichotomy, 
where my wife and I were traveling to see a new art exhibition 
from an Arab country where they were actually bringing artwork 
here to display it from a Muslim country. And yet as we were 
traveling there, my wife is reading an article about what is 
happening, tragically, to a mother and a child in Sudan. And so 
my wife says, you have to do something. You have to get on the 
phone. You need to do that tonight.
    And so here we are having this conversation going back and 
forth with real progress on one area and just a tragic 
circumstance on the other. And yet what we must do is make sure 
that religious freedoms are protected, not just for Christians 
and Jews but for Muslims and Hindus and all religions. When we 
really look at that and we see those protections taking place, 
then indeed we have a free society.
    So I thank each one of you for your work. Dr. George, I 
look forward to hearing your testimony, and I will yield back, 
Mr. Chairman.
    Mr. Smith. Thank you very much.
    I would like to now introduce our first very distinguished 
witness, Dr. Robert George, who is the current chairman of the 
U.S. Commission on International Religious Freedom. In addition 
to his current chairmanship, Robert George is a professor at 
Princeton University and member of the Council on Foreign 
Relations.
    Dr. George has also served on the President's Council on 
Bioethics, the United States Commission on Civil Rights, and 
UNESCO's World Commission on the Ethics of Scientific Knowledge 
and Technology. Dr. George was also a former judicial fellow at 
the U.S. Supreme Court.
    And I would just note parenthetically that I read much of 
what Dr. George writes and rarely have I found anyone so 
interesting, incisive, and his speech last week to the Catholic 
Prayer Breakfast was a landmark speech that all should read. 
And I want to thank you for that extraordinary leadership. Dr. 
George.

STATEMENT OF ROBERT P. GEORGE, PH.D., CHAIRMAN, U.S. COMMISSION 
               ON INTERNATIONAL RELIGIOUS FREEDOM

    Mr. George. Thank you very much, Chairman Smith. It is a 
very great honor to be appearing before your committee today in 
my role as chairman of the United States Commission on 
International Religious Freedom. It is customary I know in 
these circumstances to begin not only by thanking the committee 
and its chairman, but by praising you and praising your work, 
and the rhetorical inflation that has come as a result of that 
custom sometimes robs words of their meaning.
    So I want to lay a special stress on the sincerity of my 
words when I thank you, Congressman Smith, and Congressman 
Wolf, and Congressman Meadows, and others on this committee, 
and others in the Congress who have taken the lead in defending 
human rights, and particularly our cherished right to religious 
freedom. When I say ours, I don't mean simply ours as 
Americans. I mean ours as members of the human family.
    The work that you have done both here in the Congress and 
beyond has been vital to the progress that we have been able to 
make, and lays the foundation for future progress that not only 
those of us on the Commission on International Religious 
Freedom are aspiring to, but members of the human rights 
family, the human rights community, some of whom are in this 
room, are working day and night for. So please believe me when 
I thank you from the bottom of my heart for the work that you 
continue to do.
    I am also grateful for your very kind words about our 2014 
report, our annual report from the U.S. Commission on 
International Religious Freedom. I want to take this occasion 
to say that the excellence of this report is mainly the product 
of our extraordinary staff.
    We at the U.S. Commission on International Religious 
Freedom are truly blessed with an amazing, dedicated, gifted 
group of men and women with extraordinary knowledge of the 
circumstances of religious freedom around the globe, working on 
their particular regions, deeply committed as we are committed 
to religious freedom as a fundamental human right, and their 
dedication, their knowledge, their brilliance is what makes 
this report so good.
    So thank you for your kind words about the report, and 
thank you for all that you do to make our work more widely 
available, get it before Members of Congress, before the 
general public. Only good can come of that.
    I am grateful for the opportunity to serve as the 
Commission's chairman, as a member of the Commission. I am 
grateful to Speaker of the House John Boehner for appointing 
me. I have just been appointed to a second term. Really, it is 
an honor to be able to stand up and speak out for persecuted 
people around the world.
    People persecuted for their religion or for their beliefs, 
whether they are Ahmadis, Baha'is, Jews, my fellow Christians, 
Rohingya Muslims or other minority Muslims in various places, 
Tibetan and other Buddhists, Hindus, atheists, people of all 
faiths and people who profess no faith are persecuted for their 
religion or belief across much of the globe today. And while 
that is a dreadful horror that we must fight against with all 
our might, for those of us who are committed to the cause it 
really is an honor to be able to provide a voice for these 
often voiceless victims.
    By any measure, religious freedom remains under serious 
assault across the globe. Our report reveals that a very 
substantial proportion of the world's population live in 
circumstances in which they are either victimized by their own 
governments, or by mobs or terrorists who operate with impunity 
because of a government's unwillingness or inability to do 
anything about it, including bringing perpetrators to justice--
much less deterring the atrocities that are committed against 
them.
    And I request, Chairman Smith, that the full text of my 
statement, my longer statement, be included in the record.
    Mr. Smith. Without objection, so ordered.
    Mr. George. Simply stated, freedom of religion or belief is 
a pivotal, fundamental, central human right. It is central to 
our own history, and it is affirmed as well by international 
treaties and conventions and other obligations. And as 
Congressman Smith mentioned in his opening remarks, we have 
every reason to believe that this essential fundamental human 
right is crucial to our security and to the security of the 
world.
    Religious freedom should be promoted, advanced, protected, 
first, because it is the right thing to do because it is 
essential to the dignity of the human being. Secondly, because 
self-protection, security, requires it. If we want to combat 
terrorism, if we want to protect our own people from the kinds 
of atrocities that others have too often experienced, then one 
of the chief steps that we can take is to promote religious 
freedom abroad, especially in those countries where the absence 
of religious freedom contributes to an environment in which 
terrorism can flourish.
    In fact, religious freedom and religious freedom violations 
are central to the narratives of countries that top our 
country's foreign policy and diplomatic policy and security 
agendas. Effectively promoting religious freedom can help the 
U.S. to achieve crucial goals by fostering respect for human 
rights while promoting stability and ultimately national 
security.
    So I hope that my testimony here today underscores the role 
of our Commission, the U.S. Commission on International 
Religious Freedom, in promoting religious freedom as a 
fundamental and universal human right, and that Members of 
Congress, Mr. Smith, will support H.R. 4653, the bill 
introduced by the great human rights champion, Frank Wolf, 
which reauthorizes our Commission.
    This Commission was created out of a concern about 
religious freedom, abuses, and violations abroad. Back in 1998, 
as you will recall, responding to religious persecution 
worldwide and the perception that the U.S. Government was 
neglecting to adequately support religious freedom abroad, the 
International Religious Freedom Act was passed to make 
religious freedom a priority in U.S. foreign policy, and to 
give it the place it deserved along with other considerations 
such as trade considerations, economic matters, geostrategic 
and military considerations. To give religious freedom a place 
at the table too when it came to the formation of U.S. foreign 
and diplomatic policy.
    The IRFA created government institutions to monitor and 
report on religious persecution abroad, an Ambassador-at-Large 
and an Office of International Religious Freedom within the 
U.S. Department of State, and our independent and bipartisan 
U.S. Commission on International Religious Freedom.
    Importantly, the law also gave teeth to this effort by 
requiring the U.S. Government to identify foreign governments 
that engage in or tolerate, and I quote from the statute, 
``systematic, ongoing, and egregious violations,'' 
<greek-l>unquote,  deg.which the statute calls of course 
Countries of Particular Concern, and to take appropriate action 
in response. Let me lay some stress on the fact that this is 
not optional. It is the law of the United States. It is 
required that these identifications and designations be made 
pursuant to the terms of the statute.
    IRFA created USCIRF as an independent bipartisan body 
distinct and separate from, and therefore independent of, of 
course, the Department of State. And we were given the task of 
monitoring religious freedom worldwide and making policy 
recommendations to the President, to the Secretary of State and 
of course to you in Congress.
    Far from duplicating the State Department's work, our 
Commission's independence allows it to speak publicly about 
violations while also developing concrete and constructive 
recommendations for new U.S. policies to address these 
concerns. The advisory role we play is really quite critically 
important. The independence that we enjoy under the statute 
enables us to perform that advisory role well.
    Now one of USCIRF's chief responsibilities is to recommend 
to the State Department nations it should designate as CPCs 
precisely for their systematic, ongoing, and egregious abuses. 
In our 2014 annual report we recommended that the State 
Department redesignate the following eight countries as CPCs: 
Burma, China, Eritrea, Iran, North Korea, Saudi Arabia, Sudan, 
and Uzbekistan. We recommended, as Congressman Smith pointed 
out, that eight other nations also be designated as CPCs, and 
we did that because they fully meet the requirements, the 
standard set forth in the law in the IRFA. And these countries 
are Egypt, Iraq, Nigeria, Pakistan, Syria, Tajikistan, 
Turkmenistan, and Vietnam.
    We didn't pull these out of a hat. We are urging the 
designation of these nations as CPCs precisely because upon 
rigorous examination they are guilty of systematic, ongoing, 
and egregious abuses.
    With the State Department religious freedom report itself 
soon to be issued and along with it we hope CPC designations, 
we entirely agree, Chairman Smith, that the making of these 
designations on a regular, indeed, annual basis, is critical. 
So along with it we hope that there will be CPC designations.
    We recommended that the CPC be expanded. It has been 8 
years since any country has been added or removed. We are 
concerned that the designations that have been made in the past 
simply become, in the words of our vice chairman, Katrina 
Lantos Swett, the great human rights champion, part of the 
wallpaper that nobody pays attention to.
    We need people to pay attention. We need our Government, we 
need our citizens to pay attention to what is happening abroad 
so that our foreign policy can be formed in line with giving a 
high priority to religious freedom. And what that requires of 
course is that we regularly call attention to these abuses by 
making the designations on a regular basis. Conditions remain, 
alas, extremely poor in many countries with several nations 
meeting the statutory threshold, regrettably.
    Let me highlight two countries we believe should be added 
as CPCs, and I would single these out because of the singularly 
urgent nature of the situation in these countries. We have 
repeatedly recommended Pakistan, concluding this year in our 
report that Pakistan represents the world's worst religious 
freedom environment for a country not currently designated as a 
CPC.
    Secondly is Syria. USCIRF recommended CPC status for the 
first time in our annual report this year due to the collective 
actions of the Assad regime, internationally recognized 
opposition groups, and extremists in U.S. designated terrorist 
groups in Syria. When we look at Syria, horrifically we see 
egregious, systematic and ongoing violations of basic religious 
freedom rights perpetrated by the government and perpetrated by 
the forces seeking to overthrow the government. It is a 
horrible and tragic situation. It is time for Syria to be 
designated as a Country of Particular Concern.
    To give policymakers advance warning of deteriorating 
conditions USCIRF also highlights other nations, those not 
recommended for designation as CPC status nations, what we call 
Tier 2 countries. And these are countries whose governments 
engage in or tolerate serious violations characterized by at 
least one of the elements of the systematic, ongoing, and 
egregious CPC standard. Tier 2 countries are Afghanistan, 
Azerbaijan, Cuba, India, Indonesia, Kazakhstan, Laos, Malaysia, 
Russia, and Turkey.
    Now the CPC designations take IRFA beyond naming and 
shaming by creating concrete incentives for governments to 
improve and disincentives for inaction. Unfortunately neither 
Republican nor Democratic administrations, since USCIRF was 
created and since the IRFA was enacted, have fully utilized the 
CPC mechanism as the key foreign policy tool it was intended to 
be.
    So we want to call on both parties to recognize the 
importance of this tool being used in the way it was meant to 
be used under the statute whether the President is a Republican 
or Democrat. It doesn't matter. This is not a partisan 
question. And we, alas, find fault in administrations of both 
parties in failing fully to utilize the CPC mechanism.
    We also have praise for steps that have been taken by the 
Bush administration and by the Obama administration. There is 
much to praise in what has been done. But not enough has been 
done to utilize this tool so that it can have the maximum good 
effect for the persecuted people of the world.
    Now to be sure, religious freedom advocacies should not 
only involve naming countries to a list and imposing sanctions. 
USCIRF country recommendations also include constructive ways 
to advance religious freedom. Yet the designation process and 
the possibility of punitive actions can breathe new life into 
diplomatic efforts that should both precede and follow the 
designation and stimulate political will in foreign capitals.
    However, designating CPC countries without additional 
consequences limits the value of the tool, and if the timing of 
designating countries is erratic, if years and years and years 
go on without designations, well, the CPC process obviously 
becomes less credible. It loses its force. And we now know from 
experience that many, many countries including some of the 
worst offending countries really do care about the CPC 
designation. They let us know because they fault us for making 
those designations. They challenge the basis on which we make 
these designations.
    It is also important to know, again, from our experience 
that these CPC designations can also lift the spirits and 
encourage those human rights activists and persecuted 
communities within countries. It can serve, in the words of my 
daughter who is an international relations Ph.D. candidate at 
the London School of Economics who in her own writing calls 
this an anchor, the way U.S. actions including CPC designations 
can serve as an anchor that supports the work of dissidents, of 
human rights activists, of minority persecuted communities in 
countries to help them more effectively advocate for the cause 
of religious freedom.
    USCIRF strongly recommends the full and robust application 
of all of IRFA's existing mechanisms. This would entail, for 
starters, annual CPC designations and congressional oversight 
hearings. That needs to become the standard. Annual 
designations. Not maybe once every 3 years or maybe once every 
5 years, that creates the wallpaper problem. We need to press 
every administration. We don't care what political party leads 
it. Every administration needs to make these designations on a 
regular and, we believe, annual basis.
    It would also mean that the CPC list will expand and 
contract as conditions warrant. While the current list of 
countries has remained unchanged for a decade except for the 
addition of Uzbekistan in 2006, the religious freedom 
environment has worsened in the past 10 years with a poor 
religious freedom environment in Pakistan; backsliding in 
Vietnam, a country that Chairman Smith in his opening remarks 
discussed; continuing and rising violations in Egypt, and 
serious descent into a horrible sectarian civil war in Syria 
with all sides, as I said a moment ago, perpetrating egregious 
religious freedom abuses.
    Yet despite that, no new countries have been added to the 
State Department's CPC list. What that tells us is that the 
tool fashioned by the Congress, part of our law that is not 
optional, part of our law is not being used in the way it needs 
to be used to accomplish the goal that we all share. This is a 
bipartisan goal. It is shared by Congress. It is shared by 
people in the administration. It is shared by Democrats. It is 
shared by Republicans. Our Commission is bipartisan. Five of us 
were appointed by Democrats at the moment. Four of us were 
appointed by Republicans. We are all on the same page with 
this.
    So let us use the tool. Let us make the annual 
designations. Let us update the CPC list. Let us add Pakistan. 
Let us add Syria. Let us add the other nations that we have on 
careful review of the facts on the ground determined meet the 
standard for designation of as Countries of Particular Concern.
    And finally, better application of IRFA tools would include 
a more dynamic and strategic use of Presidential actions 
tailored to each situation and directly related to religious 
freedom violations. That is what Presidents can do. They can 
use the tool in a way to tailor their actions to have the 
maximum impact on offending nations to ameliorate and relieve 
the suffering, the persecution of people who are under severe 
pressure for their beliefs in those countries.
    Of the current eight countries designated CPCs, six had 
``double-hatted'' sanctions for which the religious freedom 
basis is now expired, and two have indefinite waivers. 
Indefinite waivers is a problematic idea in itself. Yes, the 
statute does anticipate or create the circumstances in which, 
or the procedures by which, waivers can be granted in the case 
of CPC nations.
    But if they are to be granted, surely they should not be 
granted on an unlimited and unconditional basis. If we are to 
have teeth in our CPC designations, if our IRFA policies are to 
have any real effect, where waivers are granted they should be 
for limited terms and on conditions. We should require 
improvements if waivers are to be maintained.
    In addition, the IRFA toolbox also should be used in a 
continuum of actions including diplomatic engagement, 
consultations about possible CPC action, CPC designations of 
course, binding agreement negotiations with other countries, 
Presidential actions, and/or a waiver for the narrowest 
circumstances of circumstances and not on an unlimited and 
unconditional basis.
    Besides making better use of the IRFA law, we should also 
consider amending it. That is a proposal that we have for you 
in the Congress this year. While times have changed since 
IRFA's 1998 enactment, the law has not changed. So it is time 
for some revision. The CPC tool should be broadened to allow 
the naming of not only governments of countries, but countries 
themselves where there is no effective government or government 
control, as is the case, for example, today, in Somalia and the 
Central African Republic.
    So Chairman Smith that is a request that we have for you in 
the Congress. And we have a second one. The State Department 
should also be permitted to designate transnational or local 
organizations that perpetrate particularly severe religious 
freedom abuses. In the world we find ourselves in today, very 
often the offenders or the responsibility or the locus of 
responsibility is with transnational or local organizations. We 
need to be able to take note of that. The State Department 
needs to be able to take note of that in making its 
designations.
    So it is simply updating in some limited ways the original 
IRFA law to accomplish the ends the law was designed to 
accomplish back in 1998. Not radical reforms, they are not 
necessary. It is a good law. Minor, limited adjustments to 
bring the law into line with the world.
    Now my written testimony includes other IRFA related 
recommendations, which I hope that you will consider, such as 
ensuring the Ambassador-at-Large has direct and regular access 
to the Secretary of State and more resources for the IRF office 
in the State Department. Also establishing monitoring 
mechanisms consisting of lists of persons believed to be 
imprisoned, detained or placed under house arrest for their 
religious faith. We are doing the very best we can on that on 
the Commission itself. We are communicating what we know to our 
leaders in Congress so that you can do your best on behalf of 
these people.
    Also expanding grant making and deepening the State 
Department's training on international religious freedom. It is 
very important that our diplomats and others who are 
responsible for the formation and conduct of our foreign and 
diplomatic policy understand religious freedom, understand its 
centrality, understand how it works.
    There should also be greater efforts to increase strategic 
communications programs to counter violent extremism. And the 
Broadcasting Board of Governors and other U.S. Government 
entities should increase their broadcasts and Internet programs 
with information on religious freedom and related human rights. 
That again is updating things to put us in touch with the 
reality of what is happening in the world today.
    Other recommendations are included in my written testimony 
on how the U.S. can more effectively promote religious freedom: 
The need for the President, the Secretary of State and Members 
of Congress to demonstrate in words and deeds their commitment 
to international religious freedom; the importance of 
reinvigorating IRFA's tools and creating new ones as I have 
suggested; expanding training, programming, and public 
diplomacy on religious freedom and belief; and expanding 
multilateral efforts, something that we at USCIRF are ourselves 
very much involved in.
    Over the past decade and a half, to conclude, USCIRF has 
played a unique role in developing policy recommendations in 
response to these difficult challenges and spurring our 
Government to greater activity. There is no entity quite like 
USCIRF anywhere in the world. We are trying to promote more 
USCIRF-type organizations in Europe, in our other ally 
countries, but there is nothing with USCIRF's bipartisanship, 
its independence and its clout that we know of. So we are a 
singularly American institution.
    Thanks to the expertise of our commissioners, my colleagues 
on the Commission, and our wonderful staff, we have had an 
impact. We have worked well with Congress and administrations 
across the years. Considering how issues of religious freedom 
are more relevant than ever, more important than ever, so is 
the work of USCIRF.
    Congress has an essential role to play in promoting 
religious freedom and USCIRF urges members to undertake 
activities that reflect religious freedom's vital importance to 
our foreign policy. We hope that such actions will include 
reauthorizing the U.S. Commission on International Religious 
Freedom.
    We are grateful for today's hearing, Congressman Smith, and 
urge that Congress support legislation that promotes freedom of 
religion and belief, hold hearings in support of international 
religious freedom. The holding of hearings itself is an act of 
witness and a way of getting the word out that is unique in its 
power. Also support civil society and prisoners of conscience 
abroad, and participate.
    We would like all Members of Congress to participate in the 
Defending Freedoms Project, a collaborative effort between the 
Tom Lantos Human Rights Commission, USCIRF, and another 
partner, whereby Members of Congress adopt prisoners of 
conscience and advocate on their behalf. Some of you have done 
that and we are grateful to you for doing that. It is an 
important way of bearing witness and calling attention to the 
plight of the persecuted, and we encourage you to encourage 
your colleagues to become involved in our Defending Freedoms 
Project and especially our Prisoners of Conscience Project.
    So by improving our use of existing tools for the job and 
creating new tools for a rapidly changing environment for 
religious freedom and related human rights, we can see 
constructive change. I believe we will see constructive change. 
We are on the right track. We need to make some revisions and 
adjustments. We need to rededicate ourselves. We need to 
reenergize ourselves, but we are going in the right direction. 
We just need to step on the pedal and move forward more 
forcefully, more smartly.
    If we renew our resolve, Chairman Smith, to integrate this 
fundamental freedom more fully into the foreign policy of our 
nation, I know we can bring genuine progress to those beyond 
our shores who yearn for the freedoms that we have so long 
enjoyed. I thank you very much for this opportunity to testify 
and I look forward to your questions.
    [The prepared statement of Mr. George follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
        
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Chairman, for your 
excellent world look at religious persecution and the very real 
recommendations you have made as to what to be done. We do have 
a series of votes coming up. I am advised that you may be able 
to stay.
    Mr. George. I would be happy to come back after your votes. 
I will stay here.
    Mr. Smith. There will be a Motion to Recommit which will 
give us about 20 to 25 minutes. Maybe we could ask all of our 
questions then. Maybe ask one or two now. But my friend Mr. 
Meadows is going to be presiding in the chair at the time, so 
he won't be back.
    But Mr. Meadows, did you want to----
    Mr. George. I am at your disposal all day, Congressman.
    Mr. Meadows. What I would, and we won't because I think we 
are limited on time, but what I would like you to respond maybe 
for the record is how Members of Congress truly can follow up 
on the teeth that you are talking about. One is oversight, you 
mentioned that. I know a number of those what I would call Tier 
2 are on-the-lookout countries that you have, there are three 
or four members of us that have great relationships with many 
of their ambassadors that are willing to work with you.
    So how we can get Congress, not just the State Department, 
to get actively involved in a very robust dialogue to address 
some of those things? I would look forward to see where we 
could be most helpful there. And I will yield back and we will 
go vote, and hopefully I can get out of my commitment in the 
chair and come back in.
    Mr. George. Yes. Well, I will respond to that when you 
return.
    Mr. Meadows. Okay, thank you very much.
    Mr. George. Yes, thank you.
    Mr. Smith. And we stand in brief recess. And I apologize to 
all the other witnesses and guests here for this delay. We do 
have 11 votes but they are 2-minute votes.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting, and I 
again I want to apologize for that very excessive delay owing 
to multiple votes that were back to back.
    We are joined by, first, a member of the committee, the 
subcommittee, Mr. Marino from Pennsylvania who was the U.S. 
Attorney in the Middle District of Pennsylvania, a very 
effective prosecutor and a very effective Member of the 
Congress. And I would like to yield to him such time as he may 
consume.
    Mr. Marino. Thank you, Chairman. I apologize for not being 
here early on, but Chris asked me to stop over, and I work very 
closely with him and when Chris asks me to do something I do 
it.
    Just a brief statement, Doctor, and then perhaps you can 
expand on it somewhat, give us your insight. And what the 
United States needs to do more of or start doing to become 
effective in the issues concerning religious persecution in 
other countries. We have a law. We have a law that I think has 
some teeth to it if we enforce it, if we take advantage of the 
intent behind the law.
    Religious freedom and around the world from what we are 
seeing it is becoming more prevalent. We are seeing it in Iran, 
Iraq, Afghanistan. We are seeing it in Pakistan. We are seeing 
it in some countries on the continent of Africa, and we 
probably could name another 20 or 30 places where this is 
becoming more and more prevalent.
    One of my hobbies, interests, is I study the history of 
religions. And I cannot at this point quite put my finger on 
why we are seeing more and more religious persecutions other 
than the fact that politics is playing more and more of a role 
in it, and also when it comes right down to it, money and 
resources have a great deal of play in this.
    I am disappointed that the administration isn't taking more 
of a role, let alone they are not taking an aggressive role 
that I would like to see. The United States has a great deal of 
trade around the world, and many countries around the world, 
almost all the countries around the world rely on the United 
States for trade and continual trade and know that they are 
doing business with someone honest.
    There is where we could use our influence by simply saying 
if you want to trade with us we will be a good ally, we have 
been a good ally in the past, but this is not only an economic 
issue. We are talking about a humanitarian issue, a religious 
issue. On one of the main reasons why the United States exists 
today that we claimed our independence 230-some years ago and 
one of the issues was religious freedom, whether we choose to 
participate in religion or not.
    So with that preface, could you please give me some insight 
where we should be headed and what more we can do and what else 
we can do?
    Mr. George. Thank you, Congressman Marino. I agree with 
those sentiments wholeheartedly. Our Commission has a very good 
relationship with the State Department. Part of our task is to 
advise the State Department and the President as well as the 
Congress on the situation with religious freedom violations in 
nations across the globe, and we value that excellent 
relationship. We are working together toward the same ends.
    I should also point out that I have high praise for the 
remarks that President Obama made at the National Prayer 
Breakfast on international religious freedom. I think all of 
us, those of us at the Commission, certainly, and you in 
Congress share the principles that the President articulated 
there and the goals that were articulated. But our Commission 
exists to push and to prod any administration and any Congress 
because there is more that can be done.
    Now you might say that there is always more that can be 
done and that is true. But there are some very specific 
concrete things that could be done. And in my prepared remarks 
and in the written testimony that Congressman Smith kindly 
agreed to have entered into the record we have proposed some 
specific revisions to the statute that we think will enhance 
the quality of the tools that are currently available to 
advance the cause of religious freedom.
    And I also very strongly recommended and called for some 
steps by the administration that I think really would make a 
difference. For example, making regular, preferably annual 
designations as countries as CPCs so that their status as 
offenders, the worst nation status as offenders, is constantly 
brought to the attention of policymakers and of the general 
public and doesn't become, in the words of our vice chairman, 
Katrina Lantos Swett, just part of the wallpaper.
    Also waivers can be granted of course for CPC nations and 
sometimes there are reasons to grant those waivers. But we 
don't think those waivers should be unlimited and 
unconditional. We should attach demands to those waivers for 
the amelioration of the suffering, the mitigation of the 
circumstances of people who are persecuted for their religion 
or for their beliefs around the globe. So there are some very 
concrete things that we can do.
    Among the revisions to the statute we are proposing are 
revisions that would bring the law into line with the 
contemporary world. Some things have changed since 1998, or 
some things have become clear. They have literally transpired 
since 1998. We now know better what our situation is.
    And among those is the fact that we have got some nations 
that really don't have functioning and effective governments, 
but where religious freedom violations are being perpetrated by 
elements within these nations. We need to be able to name those 
elements and attach consequences for the violations.
    So we would like transnational organizations and other 
nongovernmental organizations as well as, in some cases, local 
sorts of governments not just national governments to be 
subject to designation as CPCs with all that that entails. So 
those are some very concrete steps that can be taken.
    And I will tell you some other things, and these will apply 
as much to you in the Congress as to the people over in the 
administration.
    Mr. Marino. Let me clarify one thing----
    Mr. George. Yes, certainly.
    Mr. Marino [continuing]. If I may politely interrupt. I 
have been critical of previous administrations both Republicans 
and Democrats concerning this issue.
    Mr. George. And you are right to be. And we have been as 
well. The designations were permitted to fall off track during 
the Bush administration, if I can just be very candid with 
everybody. They started strongly in the Bush administration, 
but then at a certain point they fell off track and they needed 
to be prodded and pushed. And we have not had the regular 
designations with the Obama administration, and they need to be 
prodded and pushed.
    Mr. Marino. Do you think it is a situation where we just 
have to become more aggressive? We, the organization has to 
become more aggressive and more vocal on these issues with the 
help of Congress?
    Mr. George. That is exactly right. And holding hearings in 
itself is a very valuable way of bearing witness and keeping 
the plight of persecuted people in the forefront of our policy 
agenda. And right in the line of vision of our policymakers and 
in the forefront of the public's view so that they will help to 
put pressure on policymakers to do the right thing when it 
comes to coming to the assistance of people abroad.
    Now those are things that we can do. You in Congress, we 
are strongly encouraging everyone in Congress to participate in 
our Prisoners of Conscience Project, our Defending Freedoms 
Project, to adopt someone suffering persecution for his or her 
religion or beliefs somewhere around the world.
    For particular Members of Congress whether the House or the 
Senate who have particular connections with or interests in 
particular nations--it might be Iran, it might be China, it 
might be Egypt--adopting and thereby elevating the visibility 
of a particular prisoner is a valuable thing to do. We would 
like you to do that.
    We would like more hearings, Chairman Smith. The more often 
you can bring these matters to the attention of your colleagues 
and the public through hearings the better. Speaking out, 
taking advantage of the tools that you have to, in effect, 
designate particular people who offend, who are behind these 
religious freedom offenders persona non grata in the United 
States.
    There are some possibilities there with China. I recently 
had the occasion to transmit a list that we obtained from the 
great dissident, Chen Guangcheng, to Congressman Wolf. He now 
knows the names. And I know Congressman Wolf is the most 
aggressive defender of human rights I know, and so he will do 
what can be done to make sure that those people are designated 
under the law for the consequences that are permitted when we, 
in effect, designate a person as persona non grata.
    Mr. Marino. I agree. Instead of just saying a specific 
country that we attach names to that.
    Mr. George. Yes. The more specific we can get with the 
names the better, whether it is the names of the victims such 
as Meriam Ibrahim whose name was called to the attention of 
this meeting today by Congressman Meadows, quite rightly, or is 
a person who is a perpetrator. Name the names.
    Congressman Marino, there is a place, it is rare but there 
is a place for quiet diplomacy when you don't want to say too 
much publicly and you operate behind the scenes. But all too 
often that becomes an excuse for not doing what needs to be 
done to shine a spotlight on the abused, the abuse, and the 
abuser. More often we are going to get good results that way. 
For example, our CPC designations. We know from our experience 
that CPC designations have made a difference, for example, in 
Vietnam, in Saudi Arabia, and Turkmenistan.
    In the case of Vietnam I gave testimony, Congressman Smith 
might remember, for the Helsinki Commission where we also 
learned that when we attempted to encourage them by removing 
CPC, recommending removal of CPC status, there was some 
backsliding. So we know that what we do, using the tools of 
IRFA, can be effective. So let us just do it. Let us do more of 
it, let us do it more aggressively, and let us never lose focus 
or permit our friends in the administration, whether it is a 
Republican or Democratic administration, to lose focus.
    I think more often the problem is that our policy people 
lose focus than that it is bad will. Usually it is not bad 
will. They believe what we believe. Of course they do. They are 
Americans. They are our fellow Americans. They believe in our 
values but they lose focus.
    Mr. Marino. There are so many things coming at us within 
Congress and I am sure----
    Mr. George. Exactly.
    Mr. Marino. That is why we need to do more of this.
    Mr. George. There are trade concerns. There are 
geostrategic concerns. You guys have a lot on your minds. But 
there is nothing more fundamental to America than religious 
freedom. There is a reason we call it our first freedom, and it 
is not just that it is first in the Bill of Rights, though it 
is. It is not just that it was at the cradle of basic liberty 
in our civilization. More than that it is just so fundamental 
to the dignity of the human being. When you lose religious 
freedom, it is the canary in the coal mine. When religious 
freedom is in jeopardy, all other civil liberties, all 
principles of decency are in jeopardy. That is why it has got 
to be first and foremost.
    Mr. Marino. I couldn't agree with you more. Thank you very 
much. I apologize. I have to be in my district in 5 hours and 
it is a 4\1/2\-hour drive. So I am pushing the envelope here.
    Mr. Smith. Mr. Marino, thank you so much.
    Mr. George. Make it a safe drive, Congressman.
    Mr. Smith. I would like to now yield to the chairman of the 
Subcommittee on the Constitution and Civil Justice, but also 
the chairman of the caucus here on international religious 
freedom, Trent Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. Of course I know 
that these hearings can sometimes be an exercise in mutual 
flattery, but I truly believe that Chris Smith is one of the 
great champions we have for the cause of human dignity and 
freedom in the world. He has been a hero of mine forever and I 
just have to say that. It might be a little bit of flattery but 
it is sincere.
    And Dr. George, I want you to know that maybe it is just my 
nature, but I truly believe that if you knew how many people 
behind the scenes hold you in the highest regard, especially 
with your acumen related to constitutional foundations and 
religious freedom, I just can't express to you, sir, the weight 
of intellectual momentum that you give to any argument that 
some of us make. And we rely on you. We think you are a 
national treasure, and I really mean that. I just happen to 
have two heroes in the room at the same time and it is a little 
awkward, because I don't hold everybody to be a hero, I 
promise.
    Mr. George. Well, thank you. I am very honored to have you 
say that and to be classified with Congressman Smith. That is 
about more honor than I can bear.
    Mr. Franks. That is good company for both of you. Actually, 
I should----
    Mr. George. What you say about Congressman Smith has the 
additional virtue of being true.
    Mr. Franks. Has the advantage of being true. Well, let me 
just suggest to you that your recent, your statements just a 
moment ago are why so many of us see you as such an 
intellectual beacon. Because indeed our religious persuasion 
and convictions animate almost every other area of our either 
philosophical or political life.
    These are very important and basic things and indeed it is 
the cornerstone of all other freedom. If we fail religious 
freedom then there is really no foundation to build any notion 
that there is inherent human dignity. If we are all just 
intelligent animals, then we should just allow ourselves to be 
dragged kicking and screaming into that Sumerian night where 
the light of human compassion has gone out and the survival of 
the fittest has prevailed over humanity. It is a pretty dark, 
scary place to be.
    But apart from religious freedom we have no alternative 
from an intellectual standpoint. That is all we have to stand 
on. Because indeed if man is not created in the image of God, 
if he is not a child of God, then there is no inherent worth in 
this world and we are all worm food and we just proceed until 
it happens. So I am sure that is a real uplifting thought.
    But the bottom line is, I guess my question to you, I mean, 
the Countries of Particular Concern, my great concern here, and 
I hope I don't overstate anything, I think America's most 
powerful ability to export religious freedom is to be the 
world's greatest example of religious freedom. And when we are 
starting to fight over that in our own country where we are 
confusing religious freedom and<greek-l>, quote, deg. ``freedom 
to worship,'' where as long the religious people stay behind 
doors and worship that is okay, but if they cannot live out 
their faith in the public square, then I think religious 
freedom has taken a terrible hit and we are not the example to 
the world that we need to be, which is our greatest ability, in 
my judgment, to persuade the rest of the world to embrace 
religious freedom at its core.
    So my question is two-fold, and then I have to do like the 
other gentleman did and I have to go. But I am really anxious 
to hear two things from Dr. Robert George. And that is, number 
one, what if you were the emperor of the world, what is one 
thing that you would help America do to maintain both our 
commitment to religious freedom and our living out religious 
freedom in the government and public square, all the things 
that are necessary for people like us to know? And secondly, 
what one thing would you do to see religious freedom maintained 
and catalyzed throughout the world?
    Mr. George. Well, thank you, Congressman Franks. The one 
thing that I would love to wave a magic wand and do for 
religious freedom is to have all of our own people here in the 
United States understand something that we at the Commission 
have repeatedly and unanimously pointed out in our press 
releases and in our statements and in our op-ed pieces and in 
our reports and in our dialogues with policymakers here in the 
United States and with ambassadors and others from foreign 
nations with whom we have had interaction, and that is this. 
The right of religious freedom is not some tiny cramped, 
crabbed principle of freedom of worship. Freedom of worship is 
part of religious freedom. It is an essential part of religious 
freedom. But it is only a part and indeed a small part. The 
robust and full right to religious freedom includes not only 
the right to do what we do in the temple or the church or the 
mosque or the synagogue or before meals around the table with 
our families at home or on our knees at bedtime. It includes 
the right to take one's faith into the public square, to 
advocate for it, to persuade and be persuaded by others. The 
right to change religions if in conscience one's views change 
perhaps under the pressure of argument, but without violence or 
undue pressure or coercion, physical or psychological.
    It must include the right, Congressman Franks, to act on 
one's religiously inspired moral convictions about justice and 
the common good just as the Reverend Dr. Martin Luther King did 
to help end the monstrous horror of segregation and Jim Crow in 
our own country.
    Too often we fall into this idea that religious freedom is 
about what you do in church or synagogue or it is about what 
happens at the dinner table or on your knees before bed. That 
is true. That is part, but it is only a part. We need to 
persuade all of our people to understand, as our founders 
understood, religious freedom in the fullest and most robust 
sense.
    There are limits of course to religious freedom. There must 
be. Great atrocities can be committed in the name of religion 
and have been committed and are committed every day. Our 
Commission can tell you all about it. It is true that sometimes 
those atrocities committed<greek-l>, quote, deg. ``in the name 
of a religion'' are really a pretext for an agenda driven by 
politics or tribalism or ethnic and sectarian hatreds or 
whatever. But sometimes they really are sincere religious 
beliefs that drive people to do terrible things, and we must 
never tolerate that. I mean it would be logically inconsistent 
to think you should tolerate that because then religious 
freedom could freely be violated in the name of religious 
freedom, and we know that can't be right.
    So we on the Commission put it this way. That people must 
be free to practice their faith not only in the mosque, not 
only in the home, not only in the church, but in the public 
square and free to advocate and to persuade and to act as 
citizens on the basis of their religiously inspired beliefs so 
long as it is done without violence, so long as it is done 
without infringing on the equal rights of others.
    That is what I would, if I could have a magic wand I would 
dismiss from the minds of our people the idea that religious 
freedom is only about church or synagogue and put in its place 
the robust and full understanding of religious freedom.
    And then to your second question, again if I could do one 
thing I would activate everyone in Congress and everyone in the 
relevant policy positions in the administration to stay focused 
on religious freedom. Never let it fall out of view. Never let 
it take a secondary or tertiary position behind other 
legitimate concerns such as economic and trade concerns, 
geostrategic and military concerns. Make sure that it has the 
place at the table that it is supposed to have under IRFA.
    I would remind all our policymakers and our representatives 
that that is not just a nice idea, and it is certainly not just 
Robert George's idea or the idea of my colleagues on the U.S. 
Commission on International Religious Freedom or the staff, it 
is the law. That is what we decided, what our nation decided, 
what you decided in Congress, what the President signed into 
law in IRFA. So let us do that.
    And if I can reciprocate your praise, do what you do and do 
what Congressman Meadows does and Congressman Marino does and 
what Congressman Smith does and what Congressman Wolf 
magisterially does which is to set an example for all of your 
colleagues of putting religious freedom at the top of the 
agenda.
    Mr. Franks. Well, Mr. Chairman, I am so grateful that I got 
to attend this. Because a lot of us talk about religious 
freedom all the time but sometimes to come and hear it 
articulated so brilliantly and so accurately, it is an uplift 
again.
    And I suppose some of us are concerned about America 
becoming a Country of Particular Concern if we keep going the 
direction we are going, but thank God that is not going to 
happen, and I am grateful again for your input and just your 
voice into this debate into this human family that we all live 
in together. And it gives me great hope, it certainly does. And 
thank you, Mr. Chairman. Thank you.
    Mr. George. Thank you, Congressman Franks.
    Mr. Smith. Chairman Franks, thank you very much for your 
questions and for your kind remarks, and believe me, I feel the 
same way about you. You have been a leader on behalf of human 
rights for so long, and I appreciate your tremendous 
contribution.
    I would like to just ask a few questions----
    Mr. George. Sure, of course.
    Mr. Smith [continuing]. Before we go to Panel II, I want to 
note for the record we did invite the U.S. Department of State 
to be here. They have deferred. I don't think it was a denial 
although it could be. We will wait and see. They wanted to wait 
until the report came out. We have asked them before to come, 
so hopefully this time will be the charm.
    I would note also parenthetically that this is about my 
40th hearing exclusively focused on religious freedom, and I 
have to tell you I think it is getting demonstrably worse in 
the world. I think Chairman Franks' comment about the United 
States, while we may not look like some of the most egregious 
violators ever--hopefully that never happens--there is a shift 
and it is coming from the top, here, and I will say this 
absolutely publicly, from the President of the United States, 
that I find very disconcerting when it comes to religious 
freedom. And if we follow that pathway of worship as opposed to 
the free exercise of our religious liberties we are in very 
grave trouble, and the crowding out of the public square of 
religiously based voices will follow and is already at risk.
    I also want to point out again, and I think for the record 
that the largely forgotten rough road that IRFA took or 
traveled to enactment is remembered well by me as well as by 
the bill's chief author Frank Wolf. Sitting right where you 
sat, as well as in 2172, Mr. Chairman, was, repeatedly, John 
Shattuck, the Assistant Secretary for Democracy, Human Rights, 
and Labor, the point person for the Clinton administration who 
was against, I repeat, underscore, exclamation point, against 
enactment of IRFA. He claimed that it would create a hierarchy 
of human rights. And frankly, it wasn't until it passed the 
House and Senate, and almost died in the Senate because of 
White House opposition, when it was finally passed President 
Clinton did sign it.
    And a year later I asked the Ambassador-at-Large, is there 
any hierarchy of human rights? Any crowding out of other 
internationally recognized human rights? And he said absolutely 
not. So it was a bogus issue there, but I am concerned that 
that mindset has persisted in some quarters, in some political 
circles to this day. And when you have nonenforcement of a 
statute that says shall and shall and shall and we do not get 
enforcement of the law, it suggests that some of those old 
thoughts may still be very prevalent among people who are in 
policymaking positions.
    So we will do a hearing on nonenforcement, and when State 
finally comes I am going to ask a lot of pointed questions. I 
hope they have great answers. We all should be on the same team 
on this. There should be no divide whatsoever, but right now 
there is a divide. And again, John Shattuck sat where you sat, 
and on the record, because I held all the hearings that led to 
IRFA, every single hearing in the House of Representatives, and 
every single time the administration was against, until they 
were for and they were presented a fait accompli, an engrossed 
bill sent over by the Senate after the House has passed it, and 
it came back over here, I should say, and then down to the 
White House for signature and then he signed it. And we weren't 
even sure up to the last moment. Eleven-fifty-nine, the clock 
was ticking, we weren't sure he did sign it. And we were 
grateful for that, but now implement it.
    A couple of questions, if I could. And you have been, all 
of you, so patient with all the delays today. But on Pakistan, 
one of our witnesses will soon testify, Mr. Khan, and he makes 
the point regarding Pakistan which, I agree with you, ought to 
be a CPC. It is amazing that it is not, although no one is 
being designated anymore.
    But he points out that the 50-word Penal Code ordinance 
called Section 295-C is such remarkably broad language that 
virtually anyone can register a blasphemy case against anyone 
else in Pakistan and the accused can face capital punishment. 
There needs to be serious pushback by the entire international 
community when those kinds of laws are used and people live in 
fear that any neighbor who may have a disagreement or any 
political figure or anyone could accuse you of something and 
your life is literally at risk, and that goes doubly of course 
for Christians.
    But he points out that two of the five anti-blasphemy laws 
explicitly target by name the activities of the Ahmadiyya 
Muslim Community. If you could speak to that.
    Mr. George. Yes, this is a matter that I am very, very 
concerned about and that our Commission is very concerned 
about. The abuse of the Ahmadis who are a peaceful religious 
group simply wanting to practice their faith in peace, 
respecting everybody else's right to practice their beliefs and 
religion in peace, is one of the outrages of the world today. 
And Pakistan is in the lead. It is not the only country that 
persecutes the Ahmadis. We have had the same problem in Saudi 
Arabia, for example. But Pakistan is in the lead, and its 
oppressive blasphemy laws and the singling out of the Ahmadis 
is really behind this.
    So we want to put as much pressure as we can on the 
Pakistani regime to eliminate that practice, eliminate those 
blasphemy laws which are pretext for persecution, and 
particularly to respect the full citizenship, not only the 
rights to practice their religion, but the full citizenship of 
the Ahmadis and to not relegate them to second-class 
citizenship simply for expressing their faith in a peaceful 
way.
    Now of course Ahmadis are not alone in being persecuted by 
the Pakistani regime. We have got Christians who are 
persecuted. Of course you know all too well the case of the 
church that was burned back in September in Peshawar with, I 
believe, close to 100 fatalities. There are Hindus who are 
persecuted. There are minority Muslims like Shias who are 
persecuted there.
    It is a very serious offender, and that Congressman Smith, 
Chairman Smith, is why we put Pakistan as number one on the 
list of offenders among those not currently designated as CPCs, 
and we strongly urge, I can't emphasize enough how strongly we 
urge the State Department to list them as a CPC.
    Mr. Smith. I appreciate that very much. One of our other 
witnesses today, a man that you know very well--I have read his 
book, ``God's Double Agent'' is Bob Fu. Unfortunately it 
appears that China, Vietnam, and North Korea are in a race to 
the bottom when it comes to religious persecution. And China, 
despite all of the happy talk between some of our diplomats, 
has upped the ante. It has been bad. It is actually getting 
worse under Xi Jinping.
    One of the other hats that I wear is chairman of the 
Congressional-Executive Commission on China, and we will be 
having a Tiananmen Square hearing next Friday with people who 
were there. And I can already tell you, having talked to them 
and getting a sense of what they are going to talk about, all 
human rights in general have deteriorated significantly since 
Tiananmen Square. But on religious freedom, whether it be the 
Falun Gong, the underground Christian Church, the Catholic or 
Protestants, the Uyghurs, and of course the Tibetan Buddhists, 
there is a wholesale effort to eradicate the church.
    And I am wondering, I don't know what it takes to get this 
administration to raise the issue. We had a hearing in this 
room, it was in 2172. We heard from five daughters, and we 
called it Their Daughters' Appeal to Beijing: ``Let Our Fathers 
Go!'' all of whom, all of their dads are political prisoners. 
Gao Zhisheng is one of those, and he has represented Christians 
in the underground church, the Falun Gong.
    He has been tortured to the point where I don't know how he 
survived the torture. His wife who has testified before, his 
daughter who testified at this one, and where is the press when 
we do any of these kinds of things? There seems to be a lack of 
concern about it, while the Washington Post, Fred Hiatt, wrote 
a brilliant essay, an op-ed on his own editorial page about the 
five daughters.
    And what their one ask was, one ask, can we meet with 
President Obama? He has two daughters. He will understand. We 
contacted the White House. We wrote. We never got a letter 
back. We did get a phone call that he is too busy, the 
President of the United States, to meet five wonderful, 
articulate, loving daughters of five political dissidents who 
are being tortured.
    What does it take to get this administration to focus on 
China, Vietnam, like I said, which is bad and getting worse? As 
you know we had Father Loi testify at the Lantos Commission 
hearing recently. You know that well because you were there. I 
met with Father Loi and I asked him a question. And he was 
under house arrest, same place. He Skyped in from that same 
location.
    When I was there last time he had bully boys outside of his 
small home, his mother's home, and when he walked me out he 
said, that is as far as I can go because they will be nice 
seemingly at first and then they won't be so nice as they push 
me back in with fists into the room. And I asked him a pointed 
question and he did answer it. It is far worse than it was even 
then. If you could speak to some of these Asian countries, 
especially China, Vietnam, and North Korea, I think, it 
couldn't be clearer how bad that is.
    But certainly Vietnam is getting considered for TPP, and I 
have asked repeatedly, ``Is human rights on the table?'' We 
have had human rights dialogues but they seem to be cul-de-
sacs, where an end game is to have a discussion but it is not 
connected to other foreign policy issues by trade. So if you 
could.
    Mr. George. Certainly, Congressman Smith. As far as 
Vietnam, is concerned it is a serious offender. It should be a 
CPC, and we have recommended it for CPC status. I should add 
something or repeat something I mentioned earlier, Mr. 
Chairman, which is that we know that Vietnam does respond to 
these pressures because we have seen it happen in the past and 
then they backslid when they were removed from CPC status.
    So the obvious answer is let us hit them again. Let us put 
them back on the CPC list and see if we can bring some more 
pressure, and get some more relief of the suffering of 
persecuted people whether they are Catholics, whether they are 
Buddhists, whatever their belief is, by the Vietnamese regime 
which is a world-class offender against religious liberty.
    Now you mentioned that the situation in China is 
deteriorating. This entirely squares, Mr. Chairman, with our 
findings on the Commission. And you also point out the wide 
range of different shades of belief held by people who are 
persecuted for those beliefs in China. China qualifies as an 
equal opportunity religious freedom abuser. There doesn't seem 
to be any group whose religious freedom rights they will not 
trample upon. From the Falun Gong to the Uyghur Muslims, as you 
pointed out, to of course Catholics, Protestants, it doesn't 
matter.
    Now I suspect that part of what is going on there is this, 
that China has learned all too well what they regard as the 
lessons of the fall of the Soviet Union. The Soviet Union 
permitted in that, China's view, imprudently, the Catholic 
Church to function as a refuge, as an alternative authority 
structure, as an independent institution of civil society in 
Poland, and that gave a base of operations for human rights 
activists and solidarity and so forth. And what began in Poland 
soon spread to the other countries of Eastern Europe and 
resulted in the collapse of the entire Soviet Empire.
    My own perception here, I speak for myself on this 
particular point, Congressman Smith, rather than the entire 
Commission, not that I think they don't share my view, I just 
don't happen to know what their view is. But to share my own 
personal view with you, I think the Chinese regime sees what 
happened there and they do not want to permit any alternative 
authority structures or independent institutions of civil 
society to exist, lest they provide the fertile ground and the 
support structure for human rights activism that will, in the 
end, topple the unjust, oppressive, undemocratic regime that 
the great hero Bob Fu has done so much to expose.
    So that is what I think is going on. It helps to explain 
why they seem to be so eager to stamp out and utterly control, 
if they can't stamp out, any religious organization of any, 
even organizations that don't seem to fit at least our Western 
classic ideas of religion, like the Falun Gong. They are brutal 
toward the Falun Gong.
    We have recommended designation of China for CPC status 
since 1999, so this goes all the way back, really, to the 
beginning of our Commission. They were of course designated by 
the State Department. We renew that this year. Pressure needs 
to be brought on China.
    Let me urge you, Chairman Smith, to urge the five daughters 
and the people who are working with the five daughters to not 
give up on your request to meet, get a meeting for them with 
President Obama. President Obama does have daughters. I think 
he would understand. It is not my place speaking on behalf of 
the Commission to criticize the President. I will say this. 
What the President said about religious freedom throughout the 
world, including in China, at the National Prayer Breakfast are 
words that you or I would have been proud to say.
    I know the President in his heart believes those words, so 
let us just press every button we can to get the President's 
attention. He has many, many things on his mind. It is a 
complicated world. He is the President of the United States. To 
get his attention focused on religious freedom abuses, 
especially in places like China.
    I think this is a case where, if I can quote the story in 
the Gospel that Jesus tells of the unjust judge. Remember, the 
woman before the unjust judge in the Bible was wanting justice, 
and the unjust judge doesn't care for God or man and he is not 
going to give her justice. He is going to do whatever is 
convenient to him until she becomes so persistent that he 
decides to give her justice in her case because she just won't 
give up and she is driving him crazy. Well, I think we should--
I don't want to analogize the President to an unjust judge at 
all. That is not my point here. But my point is to emphasize 
the need for persistence especially with leaders who have many, 
many different things on their mind. But I think it would be 
very important and valuable for the President to meet with the 
five daughters. Let their stories and the stories of their 
fathers resonate in the President's ears. And I think that 
would move him to take some steps to at least at a minimum up 
the rhetorical pressure on China.
    Now we have to realize that China is a complicated case for 
U.S. foreign policy. Obviously there are important trade 
considerations. There are important geostrategic, military 
considerations that apply in any thinking about China. But that 
is why it is up to us to be so persistent in pressing our 
policymakers all the way up the line to the very top to keep 
the focus on the religious freedom abuses.
    We are never going to make any progress toward 
democratization and true respect for human rights in China 
until we address the religious freedom violations that are so 
rampant and have been, well, going all the way back, really, to 
the revolution that put Mao into power after the Second World 
War.
    Mr. Smith. I do have many questions, but I will just ask 
one final. I have noticed that obviously you name Iraq as a 
country that ought to be a CPC.
    Mr. George. Yes.
    Mr. Smith. And obviously Iraq is a place where so many of 
our service members gave blood and have come home wounded. And 
it really is unconscionable that in a place that we liberated 
along with our coalition forces and the Iraqis themselves would 
become a bastion of intolerance toward religious freedom. And I 
am wondering if you might want to speak on that issue as well, 
because obviously that is an area where again we have paid such 
a price.
    Mr. George. My heart breaks for the victims of persecution 
and especially religious persecution in Iraq. Life has moved 
from one nightmare to another nightmare to another nightmare 
for these poor people. And they are people of different faiths. 
It is not just one community whose members are being victimized 
here.
    They suffered under the monstrous regime of Saddam Hussein, 
sadistic beyond belief. They suffered through a terrible war 
where everything did not go just as we would have liked and as 
we had hoped. And now they suffer in many cases under 
persecution.
    Can I call a particular attention, not because I am myself 
a Christian and not simply because I think the focus on 
Christians should be given priority. I don't think that. I 
think we need to be even-handed in our treatment. But I must 
mention here the particular suffering of Iraqi Christians, many 
of whom were forced to flee after the fall of Hussein, and many 
of whom fled to Syria where they hoped to find some peace, even 
under the Assad dictatorship, some peace and the ability to 
practice their faith without being subjected to violence and 
persecution. And now what do we find? They are victimized again 
with violence and persecution in the Syrian Civil War and many 
of them are now having to flee a second time. It is horrific 
suffering. So that gives me another opportunity to emphasize 
our recommendation to list Syria, designate Syria as well.
    But you are absolutely right to point out that Iraq is a 
place where our young men and women spent their blood and where 
all of us spent our treasure in the effort to give them the 
freedoms that we cherish and enjoy. So we should be especially 
intolerant of any violations of basic human rights, especially 
the right to religious freedom, among those who have now gained 
power in Iraq.
    Mr. Smith. I do have one final, if you don't mind.
    Mr. George. Sure.
    Mr. Smith. Like I said, I have many more. But more than 30 
years ago I joined Ronald Reagan at the White House ceremony 
when he raised the issue of the Baha'i in Iran. And it was a 
very momentous occasion, and he really helped bring focus for 
the first time, at least in this country, on the persecution of 
the Baha'i by Iran.
    And we know Iran does violate, you talk about equal 
opportunity in China, well, they violate the religious freedom 
of a whole lot of people including Pastor Abedini. And if you 
might want to spend a moment, we do have a representative of 
the Baha'i, Kenneth Bowers, who will be testifying with very 
strong insights as to how discriminated against and persecuted 
the Baha'i actually are in Iran.
    But if you would want to take a moment to just----
    Mr. George. The persecution of the Baha'is around the world 
now is an atrocity of the very first rank. I fear, Chairman 
Smith, that the Baha'is are becoming the Jews of today. My 
great friend, Chief Rabbi Jonathan Sacks of England, points out 
that throughout much of history wherever there have been Jews, 
Jews have been persecuted. And now I fear we are seeing 
wherever there are Baha'is, Baha'is are persecuted. Thank God 
not in our own country, but in so many places around the world.
    And there is a sad and tragic irony here, because the 
Baha'i faith is a faith that includes centrally the beautiful 
teaching of the common brotherhood of all men. It is a 
beautiful teaching. And that a faith that makes that so central 
would be persecuted almost everywhere is a nightmare. But here 
we see it.
    And it is time for all of us, those of us in the human 
rights advocacy world, those of you in Congress, those in the 
administration, to take note of what is happening to members of 
this peaceful faith who do no one any harm, who seek nothing 
but brotherhood, and yet they are brutally in many places 
persecuted. So we need to elevate and make more visible this 
fact so that to the extent possible we can become agents for 
the amelioration and relief of that persecution. So this is a 
very high priority for me personally. I know it is a high 
priority for our Commission.
    Mr. Smith. Dr. George, thank you, sir, very much for your 
incisive testimony. It will help inform our committee, and 
hopefully, by extension, the Congress. We will look very 
carefully at all of the recommendations that you have made, and 
I hope that we can look to move on them expeditiously, and 
thank you again. I appreciate your leadership.
    Mr. George. Thank you, Congressman Smith.
    Mr. Smith. I would like to now invite our second panel to 
the witness table, beginning first with Mr. Kenneth Bowers who 
is the secretary of the National Spiritual Assembly of the 
Baha'is of the United States which is an annually elected 
governing body representing the Baha'i in the United States. 
Prior to this position, Mr. Bowers owned and operated a 
shipping business in Atlanta, Georgia. He is also author of an 
introductory book on the Baha'i faith entitled, ``God Speaks 
Again.''
    We will then hear from Mr. Amjad Khan who is the national 
director of public affairs for the Ahmadiyya Muslim Community, 
United States of America. Concurrent, Mr. Khan is a lawyer in 
the Akin Gump Strauss Hauer & Feld, a post-graduate research 
fellow at Harvard Law School, and the president of the 
Ahmadiyya Muslim Lawyers Association of the United States. 
Additionally, he has dedicated many hours in legal aid in 
representing refugees and asylum seekers, especially those 
fleeing religious persecution abroad. Mr. Khan has frequently 
lectured and published articles on issues of religious freedom 
in the Islamic world particularly focusing on international 
human rights policy.
    We will then hear from Mr. Bob Fu who is founder and the 
president of ChinaAid Association, a nonprofit organization 
that advocates for the underground church in China, political 
dissidents, and activists who seek to defend them. A former 
dissident and pastor of an underground church, Pastor Fu and 
his wife came to the United States in 1997 as religious 
refugees. He also spent some time in prison as a political 
prisoner.
    He is now a professor or religion and public policy at 
Midwest University. Additionally, Pastor Fu is editor-in-chief 
of the Chinese Law and Religious Monitor, and I would note 
parenthetically has been of tremendous aid to a number of 
individual dissidents that this committee and this chairman has 
worked tirelessly to try to effectuate the release of, most 
notably I would have to say would be Chen Guangcheng. Bob 
played the most pivotal role, I think, in the world in bringing 
that blind activist lawyer to freedom. So I want to thank him 
publicly for that again.
    I would like to now go to Mr. Bowers, if you could begin.

    STATEMENT OF MR. KENNETH E. BOWERS, SECRETARY, NATIONAL 
     SPIRITUAL ASSEMBLY OF THE BAHA'IS OF THE UNITED STATES

    Mr. Bowers. Thank you, Mr. Chairman, for the opportunity to 
testify on the topic of religious freedom, which is truly one 
of the most vital and pressing human rights issues of our time. 
And I would like to request that my written statement be 
included in the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Bowers. Thank you, sir. I am the secretary of the 
National Spiritual Assembly of the Baha'is of the United 
States, which is the elected governing body of the Baha'is of 
this country. The Baha'i faith is an independent world religion 
with some 5 million followers in over 200 countries and 
territories representing virtually every racial, ethnic, and 
national group on the planet.
    The Baha'i community is the largest non-Muslim religious 
minority in Iran with over 300,000 members. Since the Islamic 
Revolution of 1979, religious minorities including Christians, 
Zoroastrians, Jews, Baha'is, and Sunni and Sufi Muslims have 
been subjected to persecution by this government. For Baha'is, 
the persecution has been both severe and systematic. It is 
official government policy to deal with Baha'is, and I quote 
from one of their own documents, ``in such a way that their 
progress and development are blocked.''<greek-l>, end 
quote. deg.
    Unlike other religious minorities, Baha'is are not 
recognized under the Iranian Constitution. Their blood 
therefore is considered mobah, which means that it can be 
spilled with impunity. Over 200 Baha'is have been executed and 
thousands more have been imprisoned, many of them tortured. 
They are arbitrarily arrested and detained, their homes are 
raided, and their property is taken without compensation.
    They are denied jobs and excluded from the nation's 
university system, and they are surveilled and required to 
register with the government. Their marriages are not 
recognized. They cannot inherit the property of their deceased 
relatives. Their holy places have been destroyed and their 
cemeteries are desecrated.
    May 14, 2014, marked the sixth anniversary of the 
imprisonment of the seven former members of the ad hoc 
leadership group of the Baha'is of Iran who were sentenced to 
20-year terms for their efforts to minister to the basic needs 
of the Baha'i community. There are also 12 Baha'i educators in 
prison for their efforts to educate Baha'i youth who were 
denied entrance into Iran's universities because of their 
religion.
    With the election of Hassan Rouhani, a self-described 
moderate, to the presidency of Iran in June 2013, the Baha'i 
community held out some hope for an improvement, however 
modest, in the situation in Iran, but since his inauguration on 
August 4th the situation for the Baha'is has, rather, 
deteriorated.
    On August 24, 2013, a prominent Baha'i in Bandar Abbas was 
killed in what was by all indications religiously motivated, 
and in February of this year, a Baha'i family in Birjand, Iran, 
was stabbed by a masked intruder who broke into their home, 
though they fortunately survived. There has been no progress in 
the investigation of either of these cases.
    Two Baha'i cemeteries have been attacked in recent months. 
One is Sanandaj in December 2013 which was partially destroyed, 
and one in Shiraz which is currently being excavated. In 
November 2013, President Rouhani issued a draft charter of 
citizens rights, a document that does not expand or strengthen 
the rights of Iranians, but instead appears to further entrench 
existing discrimination including against Baha'is. In January 
2014, the number of Baha'is in prison in Iran reached 136, a 
two-decade high.
    In short, the situation for the Baha'is of Iran has 
worsened rather than improved since President Rouhani took 
office. But in spite of all of this there is a ray of hope. 
With the rise of the Internet, Iranians are increasingly able 
to access information from sources not controlled by the State. 
This, combined with the gross mistreatment of citizens of all 
backgrounds, has undermined the government's attempts to 
justify its persecution of minorities and others and has fueled 
a burgeoning human rights discourse in that country.
    And in the last several years, numerous prominent Iranians 
have spoken out for the rights of the Baha'is, often at great 
risk to themselves, further contributing to growing support for 
the Baha'i community among Iranians. Just last month an 
extraordinary development took place when a senior cleric, 
Ayatollah Abdol-Hamid Masoumi-Tehrani, gifted to the Bahai's of 
Iran a calligraphic work of verses from Baha'i sacred 
scripture.
    Earlier this month he participated in a meeting at which a 
number of human rights activists including the recently 
released lawyer, Ms. Nasrin Satoudeh, called for an end to 
discrimination against the Baha'is, and signed a photo of the 
seven imprisoned Baha'i leaders. And Mr. Chairman, if I may 
just show this photograph. This, a photograph of these people 
together. And you may not see it from here, but this is an 
Ayatollah, a very high ranking Islamic cleric, who has spoken 
on behalf of the rights of the Baha'is.
    And also in this picture, and I won't bother pointing them 
out but just so that you will know, are Mohammad Nourizad who 
is a journalist and a former supporter of the regime but now is 
a reformist; Dr. Mohammad Maleki, the former president of the 
University of Tehran who publicly has apologized to the Baha'is 
last year; Narges Mohammadi, a prominent women's rights 
activist who spent time in prison with some of the Baha'is; 
Nasrin Sotoudeh, a human rights lawyer whom I mentioned; 
Massoumeh Dehghan, an activist and who is also the wife of a 
prominent human rights lawyer who is now imprisoned for his 
representation of the Baha'is; and then finally, Zhila Bani-
Yaghoub and Isa Saharkhiz who are two prominent journalists who 
have also spent time in prison.
    So this is an extraordinary photograph of an occasion where 
these people together have really gone out and taken a great 
risk on behalf of the rights of the Baha'is, and I thought that 
the subcommittee should see this. So we can see that we are now 
at a critical juncture because it is important to continue 
shining a spotlight on human rights and religious freedom in 
Iran.
    The Government of Iran is, despite its protestations to the 
contrary, very sensitive to international opinion. And so we 
believe that this spotlighting has prevented the persecution of 
the Baha'is in Iran from becoming much worse than it already 
is. And mounting international attention lends crucial support 
to the domestic movement for human rights within Iran.
    Critical to these efforts are the State Department's 
International Religious Freedom Reports, the U.S. Commission on 
International Religious Freedom's annual reports, public 
statements made by State Department officials and USCIRF 
commissioners, and op-ed pieces in major news outlets authored 
by USCIRF commissioners including, we would add, an op-ed on 
the persecution of the Baha'is of Iran published only this week 
in the Wall Street Journal's Opinion Section in Europe.
    These put the Iranian Government on notice that it is being 
watched, provide other governments and civil society actors 
with the information they need to continue their work, and 
serve to highlight issues of human rights and religious 
freedom. We are hopeful that these rights and freedoms will be 
an important part of the U.S.'s current dialogue with Iran.
    The U.S. Congress has also consistently condemned the 
persecution of the Baha'is in Iran. House Resolution 109, now 
pending in the House with 113 co-sponsors, yourself among them, 
sir, condemns this persecution and urges the President and 
Secretary of State to utilize all available authorities to 
impose sanctions on Iranian Government officials and other 
individuals who are directly responsible for serious human 
rights abuses including against the Baha'i community.
    Resolutions like these constitute a strong statement from 
the U.S. Government to the Government of Iran and to friends 
and allies around the world, help garner media coverage, raise 
public awareness of the situation in Iran, and support 
accountability for human rights violations in Iran. We hope 
that those Representatives who have not yet co-sponsored House 
Resolution 109 will do so, and that this resolution will be 
passed with strong bipartisan support.
    I thank you again, Mr. Chairman, for holding this important 
hearing and for inviting me to offer my testimony. And we do 
hope that hearings like this will continue to shed a light on 
religious freedoms violation in Iran and will help to hasten 
the day when Baha'is and all the people of Iran are accorded 
their full human rights.
    [The prepared statement of Mr. Bowers follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Bowers, thank you so very much for your 
testimony, and I will wait for questions until everybody is 
done. Mr. Khan?

  STATEMENT OF MR. AMJAD M. KHAN, NATIONAL DIRECTOR OF PUBLIC 
            AFFAIRS, AHMADIYYA MUSLIM COMMUNITY USA

    Mr. Khan. Thank you, Mr. Chairman, and the other members of 
the subcommittee. It is an honor and a privilege to be back 
here. Mr. Chairman, you mentioned this is your 40th hearing 
that you have convened on international religious freedom. I 
have had occasion to come on two prior occasions at the Lantos 
Commission testifying about the persecution of Ahmadi Muslims, 
but I commend your leadership on this issue. It is extremely 
valuable to us as a community.
    I represent in my pro bono practice many, many refugees. I 
have represented Christians from Egypt. I have represented Jews 
from Iran. And I represent many Ahmadi Muslims who are fleeing 
persecution all over the world. Their stories are palpable and 
the persecution that many of these communities endure cuts very 
deep.
    So I am wrapped up in these narratives and restless because 
of them, and I come to you today to comment on the persecution 
of the Ahmadiyya Community, particularly, and to focus on 
Pakistan. I have a lengthier statement and I request your 
permission to submit this statement in the record.
    Mr. Smith. Without objection, it will.
    Mr. Khan. Thank you. I am going to really focus on two 
aspects and I want to talk about Pakistan particularly, 
although the persecution of the Ahmadiyya Muslim Community is 
quite global and in many countries Ahmadis are suffering, 
particularly in South Asia, in Bangladesh, India, and Pakistan, 
and Indonesia as well, and in the Middle East where there is a 
growing concern around the persecution of Ahmadis particularly 
in Saudi Arabia and Egypt.
    But Pakistan, I think, sir, for this hearing on this 
subject is a great case study. Before I do that, very briefly, 
the Ahmadiyya Muslim Community was founded in 1889. The 
Ahmadiyya Muslim Community is a revivalist movement within 
Islam. I want to make this point very clear. Ahmadis profess to 
be Muslim, so I will be using the phrase ``Ahmadi Muslim'' 
throughout my testimony. This is a critical distinction.
    I am very happy that the President of the United States, 
President Obama, in his remarks at the Prayer Breakfast also 
used the term ``Ahmadi Muslim,'' because it is our essential 
belief that is being challenged, our self-identification as 
Muslims is what is illegal in Pakistan. And as I will explain 
that really cuts deep in a very pervasive way.
    A central tenet of our faith is that our community rejects 
terrorism for any and all reasons. And when violent extremists 
label their acts of terrorism as jihad they do so wrongly, but 
it is our community that is usually the first and most forceful 
in its denunciation. We focus on the true Islamic teachings, 
and the founder of our community preached for a bloodless, 
intellectual jihad by the pen as the true jihad and denounced 
very strongly extremism.
    So our community has been suffering quite a bit and our 
religious leader--we are the largest Muslim community with a 
single spiritual leader, His Holiness Mirza Masroor Ahmad. He 
came here in a congressional reception, a bipartisan reception 
where 30 Members of Congress hosted him. And he spoke about the 
peaceful teachings of Islam and also commented on the 
persecution. The U.S. Commission on International Religious 
Freedom and the Lantos Commission co-sponsored his trip and his 
visit.
    So allow me to focus on Pakistan. There is a very rich 
legal history about the persecution of Ahmadis, and I will, for 
purposes of my testimony I will spare a lot of detail. But I 
will mention that Ahmadis by constitutional amendment are 
declared to be non-Muslim. The second amendment to Pakistan's 
Constitution passed in 1974 declares our community as a matter 
of law to be non-Muslim. So that is where we start.
    But it gets worse than that. And Chairman Smith, you 
mentioned about the 50-word Penal Code provision, section 295-
C, a source of intense litigation. The anti-blasphemy laws 
which affect a broad range of minorities, particularly the 
Christian and Ahmadiyya Community, two of those laws explicitly 
criminalize Ahmadi activities.
    If we use the Islamic greeting, ``As-salamu alaykum,'' if 
we use Arabic script on a wedding invitation card--these are 
real cases--those are arrestable offenses. And under these 
laws, witnessing our faith is a crime. And it is the legal 
apparatus that really intrigues me and gives me the most pause, 
how to dismantle that legal apparatus is the key question.
    Virtually anyone can register a blasphemy case against 
anyone else in Pakistan because of this very broad language 
under section 295-C. Now we know the pernicious effects of 
these laws, and I wanted to cite a few high level statistics so 
you get a holistic picture of the persecution of our community.
    Many hundreds of Ahmadis have been murdered in Pakistan. In 
the past 4 years, 137 Ahmadis have been murdered, and the 
single largest attack on the Ahmadiyya Community, which is one 
of the largest attacks, terrorist attacks, in Pakistan's 
history was on May 28, 2010, when 86 Ahmadis were gunned down, 
many hundreds injured by the Pakistani Taliban, the TTP. That 
was one of the deadliest attacks, and since that time in the 
past 4 years there has been a devolving and deteriorating 
situation.
    It has always been bad, Representative Smith, but I hear 
the stories of so many Ahmadi refugees who are fleeing, 
hundreds, rather thousands, from Pakistan. And I know that in 
the past 4 years it has become extremely acute. I mentioned 
about the constitutional amendment. Every single Ahmadi man, 
woman, and child is declared to be non-Muslim by law, even 
though in the course of our beliefs we are Muslim through and 
through.
    Since 1985, millions of Ahmadi Muslims in Pakistan can't 
vote. This is the eighth election. Last year was the eighth 
election, national election, where Ahmadis were not able to 
vote. In order to vote in Pakistan as an Ahmadi we have to 
declare ourselves to be non-Muslim which no Ahmadi would do. It 
is a remarkable situation that such a vibrant and literate 
community is disenfranchised. And almost 4,000 blasphemy cases 
have been registered against Ahmadis. Forty percent of all 
blasphemy arrests in Pakistan are of Ahmadi Muslims, and 90 
Ahmadi Muslim mosques, and we can't use the word ``mosque'' 
because that is an arrestable offense. They say houses of 
worship in Pakistan. Ninety of them have been either occupied 
forcibly, sealed, barred, or burned down. And the cemetery 
burial of Ahmadis, the bodies are being exhumed. We are being 
denied the right to even bury our own, and graves are being 
desecrated. So this is just a high-level situation.
    In the interest of time, I have many incidences of 
persecution I can mention but I will just focus on one. It was 
last week. And this provides a snapshot, a window into the 
nature of this persecution. Six Ahmadi Muslims saw that a 
shopkeeper had on his Islamic calendar an insult against Ahmadi 
Muslims. So they walked to the store and said remove this 
insult.
    The shopkeeper not only said no, but registered a blasphemy 
case against those six Ahmadis. They were put in a prison cell, 
this is in Sheikhapura in Punjab, and 3 days later while Khalil 
Ahmad, one of them who is 65 years old, a father of four, while 
he was in police custody a man walked in, asked to see Mr. 
Khalil, was given permission to see him, and shot and killed 
him, and he died. The community in Pakistan suspects that the 
police facilitated the killer's entry and the lethal act.
    So this in a nutshell is just an example of how the 
persecution is not just by sectarian groups, but that the 
police are aware of what a blasphemy case means in society. We 
know some of the most courageous voices against the blasphemy 
laws, Minister Shahbaz Bhatti, Governor Salman Taseer, were 
assassinated for their opposition against these laws. But we 
see that now the police are also unable or unwilling to control 
the situation.
    Now what are the recurring patterns here? And this is 
really the key point that I would like to make. What we see in 
Pakistan is that police at the provincial and local levels 
routinely fail to provide adequate protection for vulnerable 
Ahmadi Muslims.
    Let us talk about the Lahore attack. Eighty six were dead. 
Months before that attack there was written correspondence at 
the highest levels in the Human Rights Commission of Pakistan 
saying that those attacks were imminent, and yet nevertheless 
the attacks took place and police didn't provide protection.
    We know that Ahmadi physicians, lawyers, teachers, are 
particularly targeted. There are assassination hit lists with 
Ahmadi businesses and their addresses that are rampant all over 
Faisalabad. Billboards. If you drive through Lahore you will 
see billboards that say that Ahmadis are ``Wajib ul Qatl,'' 
worthy of being killed. They are funded by the government, 
those billboards, so the perpetrators of these attacks are not 
apprehended.
    It is just, I say, a Kafkaesque world where the 
perpetrators are permitted to do these acts with impunity and 
the victims suffer in prison. That is the reality on the ground 
in Pakistan. And we know about the effects of the blasphemy 
laws. But against that backdrop, Chairman Smith, and this is 
where I want to turn to, we know what we can do in the United 
States.
    The International Religious Freedom Act of 1998 is not just 
a law on the books. This law has provided tremendous support 
for our community. I have been involved on these cases since I 
was an undergrad in 1997-1998 when the law was passed. I have 
seen its trajectory in 15 years. I have litigated these cases. 
I have lived these cases. I can tell you, Chairman Smith, that 
that act, and Congressman Wolf was the architect for it who is 
the chair of the Ahmadiyya Caucus, the newly-formed Ahmadiyya 
Caucus, that act has literally saved lives.
    And I want to comment briefly about some of the features of 
USCIRF, particularly, because the U.S. Commission which is an 
independent watchdog has been a leader on this front and I have 
worked with commissioners from both sides on this and most 
recently Chairman George. First, USCIRF, supported by a highly 
knowledgeable and dedicated staff, has consistently monitored 
and reported on the deteriorating conditions of religious 
liberty for Ahmadi Muslims in the Islamic world.
    Each year we know the Commission publishes an annual 
report. I am acutely aware as someone who lives in this space 
as an international human rights lawyer how hard it is to get 
reliable information on the ground. But USCIRF's report 
provides that information. We use it in court. In the case of 
the Egyptian Coptic Christians, I submitted a USCIRF report to 
the ninth circuit which turned that case around. I use USCIRF 
materials in advocacy.
    Second, we know that the advocacy also consists of actually 
pressing our Government on these issues. We know that Dr. 
Robert George mentioned the case of two Ahmadi detainees in 
Saudi Arabia. In the recent trip of President Obama to Saudi we 
know that that case has taken traction because of USCIRF's 
work.
    And I want to make this point very clear because it is a 
subtle point but it is very important. It is USCIRF's 
independence that allows it to shine a spotlight on abuses of 
religious freedom even when other organs of our own Government 
are constrained by political considerations of foreign policy 
or national security. I know there is a discussion about CPC 
designations. But it is USCIRF's independence that gives 
traction and allows us to be advocates on the ground.
    And I want to also focus on the missions that USCIRF takes. 
They have gone to Nigeria. They have gone to Saudi. They have 
gone to Pakistan, Pakistan particularly, and they have raised 
these issues. We feel we have a voice, an independent voice 
that is verifying this information on the ground. So this 
tireless work that the commissioners and the staff routinely 
exhibit is something that we as a community deeply appreciate 
and we absolutely need, and we absolutely support the 
reauthorization of USCIRF.
    Time is limited, so I want to conclude by again thanking 
you, Chairman Smith, for your leadership on this issue. The 
leadership in Congress has been terrific around the Ahmadi 
issue. We finally have now a caucus around our concerns and 
that is bipartisan, and we have, I understand, several dozen 
Members of Congress have joined that caucus. We hope that we 
can come into future hearings and talk about these issues. We 
have testified previously on Indonesia and other countries 
where Ahmadis are suffering.
    And I will say at the end that the primary source of our 
community's persecution are religious extremists who espouse a 
militant perversion of Islam, and our community strongly 
believes that all such extremism must be cut at its root and we 
are prepared to work with you and others on this matter, and 
particularly USCIRF. Thank you.
    [The prepared statement of Mr. Khan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Khan, thank you very much for your testimony 
and your extraordinary leadership. Pastor Fu?

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Mr. Chairman Smith, thank you so much for having me 
again. Thank you for your leadership again on not only 
protecting, advocating for the religious vulnerables, 
persecuted faithfuls, and also for other human rights abused. I 
also want to commend the excellent, outstanding work and 
leadership of Chairman George for your outstanding staff 
compiling and, really, for this annual report.
    And Mr. Chairman, as we have seen on these photos in the 
past few weeks about this recent escalation of persecution, 
religious persecution in China. We have documented in February 
an annual report about the persecution, just on the Christian 
persecution side, in 2013. We have seen compared to the year 
2012, in 2013, the persecution against Christians in China 
alone had risen almost 30 percent.
    And of the six categories ChinaAid uses to monitor the rate 
of persecution of Christians, all but one category increased 
from 2 to 50 percent. And among the 143 documented cases, which 
obviously a tip of the iceberg because of the information 
censorship, with 7,424 persecuted individuals, there are 1,470 
people of faith, Christian, were detained in 2013 alone.
    Of course back to this year, after February we have seen a 
much more dramatic increase of the persecution in the Christian 
communities. And this time, even the government-sanctioned 
Three-Self Patriotic Movement churches have been subject to 
severe suppression and across-the-board restrictions.
    Since April this year, the Zhejiang Communist Committee of 
the province has planned and implemented some harsh suppressive 
measures against both the Three-Self churches and the 
independent house churches, forcibly demolishing the so-called 
illegally constructed church buildings and the crosses on the 
roof of churches throughout the province and forcing house 
churches to stop the so-called illegal gatherings, which has 
aroused many concerns and protests throughout the provinces.
    According to our own documentation and the statistics, 
these suppressive measures now against the house churches and 
to the Three-Self churches have been carried out across the 
board in Beijing, in Guangdong, in Guizhou, in Henan, Shandong, 
Jiangsu, Anhui, Shaanxi, Shanxi, Xinjiang Uyghur Autonomous 
Region, Inner Mongolia Autonomous Region, Sichuan, Tibet 
Autonomous Region, and Guangxi Zhuang Province.
    So it is not really just an isolated incident of some local 
officials' abuse of their power or just about destroying some 
unauthorized buildings. In the past 2 weeks or so, almost every 
day we have documented, and we have received well-documented 
reports, there is one church, either it was destroyed or the 
crosses on that church was removed or destroyed.
    And we have also compiled a comprehensive report based on 
our independent investigation on the ground that shows up until 
May 18th, just last week, we have documented 64 churches, both 
the government-sanctioned churches and house churches had 
either been destroyed or their crosses were being forcibly 
removed. Like this one just happened on the end of April, and 
it was a church has been there for almost 20 years.
    And we just learned on May 18 that in 1 day alone, over 60 
crosses were forcibly removed. And as some, even the American 
church leaders, claim that this is only isolated incident 
caused by local government officials, and how about these 
crosses? I mean, how offensive are, how much of a disturbance 
to the public safety or social stability is a cross on the top 
of the church?
    So this certainly represents a major escalation of 
religious persecution, not only, of course, at the areas where 
the Tibetan Buddhists and Uyghur Muslims had been severely 
suppressed, but also in many other areas where both the house 
churches and the Three-Self churches has been targeted.
    And even those, the Christian-held businesses now are 
targeted. Just to give one example, on February 18, Ms. Cheng 
Jie, she is a director of a Christian kindergarten, which is a 
subsidiary of a house church called the Liangren House Church 
from Guangzhou, and this kindergarten was raided, and the 
director Cheng Jie and her fellow coworker Mo Xiliu, they were 
all criminally detained and arrested simply because they were 
found using part of the curriculum on character-building with 
the Christian content.
    And her lawyer, Ms. Chen Jie's lawyer, just last week 
visited her from her prison. And you can tell she was locked 
up. And she is the mother of two children. The youngest boy is 
only 2 years old. So she is being held there for 3 months 
already and facing a long term imprisonment. So this is Ms. 
Chen Jie.
    And of course, in many other parts of China I can name on 
and on with these cases, like in Shaanxi Province, two 
believers were--just for simply having some Christian hymnbook 
available in the bookstore--they were sentenced to 3 and 5 
years, respectively, in criminal sentence last year.
    And of course in Pingdingshan, there are seven leaders who 
were also arrested and sentenced to 3 to 7 years for being 
accused of a evil cult as ``The Shouters.'' And in Nanle, in 
Henan Province, one of the government Three-Self Church 
pastors, who is the chairman and president of the Three-Self 
Patriotic Movement, he was kidnapped and arrested along with 27 
members and leaders of his church for simply advocating for 
social justice for the vulnerable of his believers. And many of 
his believers had been detained.
    Some were sent to simply black jails without any judicial 
process, and those believers were tortured and interrogated on 
producing evidence--so-called evidence--against their pastor, 
Pastor Zhang Shaojie, who is facing up to, maybe, 15 years 
sentence if he is convicted.
    In Beijing alone of course we have seen the increasing 
escalation of the persecution against the Shouwang Church. In 
the past 2 weeks the escalations has reached to the level that 
five members of that church were sentenced to administrative 
detention for the first time. And in the past 3 years, every 
Sunday in that church there are from 2,000 to 200 members were 
detained for simply going to outdoor worship.
    And of course we have documented that report about the 64 
churches where the crosses were being removed. A number of 
church leaders in Zhejiang Province were sentenced to criminal 
detention as well. So besides my written reports, and I also 
sent to the committee about that latest compiled report about 
64 churches were being destroyed and crosses were being taken 
down, and you can tell it is still going on.
    And Mr. Chairman, I have a few recommendations I want to 
spell out. I think it is time for the U.S. Government and the 
international community to increase our effort to take action 
right away to stop this barbaric, Chinese Government-
orchestrated, massive religious persecution in China, and, of 
course, I echo the call from my fellow witnesses today, along 
with the repressive governments in Pakistan and other 
countries.
    And we all know of course that, as Chairman George 
mentioned and articulated so well, that this religious freedom 
is our first freedom, and it is treasured in the fundamental 
human rights called into international norms. And China had 
been designated in the CPC list since the enactment of the 
International Religious Freedom Act, since 1999, just 2 years 
after my wife and I, with our 2-month-old son, were granted as 
the first religious refugees to the United States.
    And I think, here are some of my appeals. The CPC 
designations are really not being utilized as intended. The 
consequences of the sanctions or visa bans are rarely, if ever, 
employed effectively. I think, as Chairman George said, that 
the double-hatting of sanctions and use of waivers weakens the 
CPC. I call Congress to, really, to make some modification or 
amendments so that there is teeth on this CPC to enforce the 
list with the two meaningful sanctions so that China won't feel 
a free hand.
    The most urgent right now is for the U.S. Government to 
make a public statement on calling to the Chinese Government to 
return the properties of numerous house churches represented 
by, like the Shouwang Church and other churches, to restore the 
physical freedom of the church leaders, like the senior pastor 
Jin Tianming who has been under arbitrary house arrest for the 
past 3 years. He may be the house church pastor who has served 
the longest time in the house arrest in his own home.
    And to release these believers detained, really, in various 
black jails. I think the President, certainly, and the 
Secretary of State should step up and use the bully pulpit to 
just mention their names, and it will make a difference. I 
remember when we had, as you mentioned the blind, self-taught 
lawyer Chen Guangcheng at this room for the hearing, what a 
great difference that made for him and his family's freedom.
    And I also suggest that the U.S. Government establish a 
database of the Chinese Communist officials violating religious 
freedom and implementing this religious persecution, and 
strictly bar them from visiting the U.S., and strengthen the 
cooperation with other nations and the United Nations in 
establishing an international coalition toward containing and 
sanctioning the Chinese Communist Government's violation of 
religious freedom.
    And I also echo Chairman George's recommendation on that 
front. I think when Chen Guangcheng just named these 33 names 
of the Chinese Government officials who were found violating 
the women and children rights by forcing the forced abortion 
practice, I think his township and county officials after that 
hearing immediately convened an emergency meeting, talked about 
the 33 names because some of their names are on that list. The 
only sarcastic tone at that emergency meeting convened by the 
village and county officials was, ``Are you planning to go to 
the U.S.?'' And they said, ``No, we don't care.'' But that 
conversation alone means they do care. That means they do care 
about their children even coming to the United States.
    Finally, I think this CPC designation will be, I think, ten 
times or more effective, I think, if we help the Internet 
freedom to break or bypass the Internet firewall. I would call 
the BBG to increase its budget to develop more effective tools 
that can be achievable, I think, if more well-documented cases 
are able to be obtained. If just 10 percent of Chinese 
population, just 140 million Christians or Catholics are able 
to get access of the Internet without hindrance, we will 
certainly, I think, gather more information, and certainly the 
regime will not be sustainable for the continued religious 
persecution. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fu follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much, Pastor Fu. Just a few 
questions. And Dr. George, thank you again for your leadership 
and testimony today.
    Let me ask all of you a general question, first, what you 
think would happen if the USCIRF was not reauthorized. I 
mentioned before the hostility that is sometimes not even 
concealed toward IRFA in general, but the hostility toward 
USCIRF is even more profound. No one likes somebody looking 
over their shoulder. There are people, vested interests, who 
would rather that the religious freedom issue would just go 
away. It complicates other diplomacy and statecraft, and I 
think it is absolutely essential to it, something that it 
complicates it.
    And on the visa ban issue, if you could all speak to that 
one as well. The only person to my knowledge who has been 
sanctioned under the provisions of IRFA regarding the visa ban 
has been the new Prime Minister of India, Modi. That is it. In 
2004, I sponsored a law called the Belarus Democracy Act. It 
provides that Belarus, because of its dictatorship and its 
repression of human rights, that a number of things take place, 
including a visa ban. It also holds Lukashenka and his cronies 
to task in terms of their ability to buy and sell and trade.
    But on the visa ban there are some 200, give or take, 
people that are on the list for small, little Belarus. In 2000, 
I authored a bill called the Admiral James W. Nance and Meg 
Donovan Foreign Relations Authorization Act that included a 
visa ban for any country, and the focus is obviously China, 
where forced abortion and forced sterilization and those 
officials that are complicit in any of those crimes against 
women or children. And there have been, we asked the 
Congressional Research Service, years to date since 2000, under 
30, under 30 people who have been denied visas pursuant to that 
legislation.
    So tiny little Belarus, which is a human rights violator, 
we have 200. IRFA, we have one. And the Admiral James W. Nance 
and Meg Donovan Foreign Relations Authorization Act, we have 
under 30 for a crime against women that has religious freedom 
connotations as well, and it is horrific. I think we need to 
redouble our efforts on the visa ban side of it. I am wondering 
what all of you might think about that.
    It does get their imaginations going when they know they 
can't send their kids, because it applies equally to the 
violator and to their families, the ability to send your kids 
to NYU or some other higher education or university here gets 
crimped if you are a religious persecutor. And our State 
Department, and it is already in the law, maybe we should look 
to ways to enhance it and to make it with exclamation points. 
But your thoughts on if there is no USCIRF, because again there 
are powers that be that want it to die when it expires, its 
authorization, and the visa ban in particular.
    Mr. Khan. I will take a shot at it, Chairman Smith. 
Excellent questions. I commented a bit in my testimony about 
how USCIRF has been so valuable to the work we do as a 
community. If there is no reauthorization of USCIRF there will 
be direct consequences on our advocacy, and specifically the 
independence of USCIRF, which was the intent of the 
International Religious Freedom Act. The independent watchdog 
role that USCIRF plays is what gives it traction.
    And unfortunately, and we have seen this transpire in the 
past 15 years under various administrations that sometimes the 
possibility of waiver at the State Department, even if there is 
a Country of Particular Concern that is violating religious 
freedom, there are exceptions built upon exceptions and there 
are national security considerations, and there are a whole 
host of considerations that go into enforcing the International 
Religious Freedom Act by the State Department.
    Those are constraints on the State Department. That is very 
legitimate. There are a lot of considerations that should go 
into that and frankly that is above my pay grade. But not 
having USCIRF means that you don't have an independent voice 
that is checking what is actually happening on the ground, and 
the recommendations that an independent group is making must be 
taken seriously.
    So I fear that there will be uneven enforcement on 
international religious freedom issues if USCIRF is not 
reauthorized. That will have staggering implications on 
minorities who are particularly suffering, vulnerable religious 
minorities. I know from our community perspective we will lose 
the ability to have independent reports on very serious 
violations in countries that it is very difficult to get 
information about, for example, Saudi Arabia, and to have 
USCIRF as an ally on that is very critical.
    On the second point, on the visa ban it is interesting. As 
a community I don't think we have a particular view on how that 
plays out in terms of an enforcement tool, but I will say this. 
That a country like Pakistan, it is quite difficult to point to 
specific perpetrators who are harming Ahmadis because it is so 
legally entrenched and it is so surreptitiously engineered and 
so cleverly designed that it is hard to point to a particular 
person who is authorizing these acts.
    It is police who are being given orders not to protect 
Ahmadis. It is individuals who are complicit in torture, rogue 
actors. It is hard to actually pinpoint individuals who are 
causing all of these problems. So I do think there is an 
inherent problem in a country like Pakistan or even Saudi where 
you can point to--and it is by design--where you can point to a 
specific person who is behind the wholesale international 
religious freedom violations.
    But there are many mechanisms under the International 
Religious Freedom Act, private enforcement, private demarche. I 
want to make this point that you don't have to be a CPC to 
still be held accountable. I think for some reason, perhaps it 
is a mistaken view maybe in the State Department and in 
multiple administrations that somehow if you are not a CPC 
there can't be any accountability for these violations. 
Obviously there can be more, but there can be a lot done even 
for a country that is not designated as CPC, like Pakistan.
    Mr. Fu. If I, yes, also can make a comment. I agree with 
Mr. Khan's comment about the necessity to reauthorize the 
existence of USCIRF. I mean just imagine, in the past 6 months 
in the State Department International Religious Freedom office, 
the Ambassador-at-Large is vacant. And if USCIRF, if there is 
no organization like USCIRF to release a report what could have 
happened, right?
    And I think the State Department, of course, is a political 
body. And according to the Washington Post, when the 
Ambassador-at-Large was rejected for visa by China when she 
tried to travel to China last year, and she was even asked not 
to speak up about her visa being rejected by China, so without 
USCIRF then, the independent Commission, I think there is no 
authority, independent authority to address this issue.
    And on the visa ban, I can assure you that I totally 
support about your effort to double, triple the effort to find 
names. And in the Chinese civil society, in the Chinese 
communities, we can really make document and collect the most 
accurate names, the perpetrators, and supply their names. For 
instance, in this Nanle case and all the persecuted believers 
know who is responsible. This is the Party secretary of Nanle 
County, Henan Province, Mr. Huang Shouxi. And he was even in 
the court when the pastors were tried and was just behind the 
curtain, orchestrated the whole thing. So we certainly know his 
name, we know his family members, we know their cell phone 
numbers. So I think you can be assured we will get the job 
done.
    Mr. Bowers. Thank you, Mr. Chairman, for that question. And 
I will only add to what has already been said by my fellow 
witnesses that I guess it comes down to competence, really. Who 
can name an organization that has done a better job in 
assessing the situation of religious freedom around the world? 
And with that competence has come a degree of credibility that 
is unmatched in human rights circles and influence, so that it 
is readily heeded whenever USCIRF submits an op-ed piece to 
major media outlets or in any way is involved in this work it 
has a very, very strong voice in that world. So I would add 
that to what my colleagues have said.
    And in terms of the visa ban, you may recall that 
Resolution 109, now in the House, does urge the President and 
the Secretary of State to impose individual sanctions on 
Iranian officials and others who are guilty of human rights 
abuses, and we certainly do support that.
    You mentioned the IRFA provision for that but the sanctions 
in this case could be brought also under the Comprehensive Iran 
Sanctions, Accountability, and Divestment Act of 2010, and the 
Iran Threat Reduction and Syria Human Rights Act of 2012, these 
also would be perfectly adequate to cover that. And we would 
support individual sanctions. And we in our case we could name 
and there have been names quite a number of individual 
officials who could be held accountable for their actions.
    Mr. Smith. Thank you. Can I ask you how helpful or less 
than helpful United Nations mechanisms have been, particularly 
the U.N. Human Rights Council? Many of us, and I was very loud 
in my dissent when the Commission was matriculating to the 
Council there were promises made that have been promises 
unkept, that this would be different than the original 
Commission because the Commission was filled with rogue nations 
that ran interference, tried to literally buy some of the votes 
with foreign aid, particularly China, and so that they would 
not be held to account. Even when they went through their 
periodic review, the softballs that were lobbed at offending 
countries--it was like T-ball. You could just hit home runs. 
Very, very weak.
    But I am wondering, yes, there are mechanisms. I mean the 
Human Rights Council could do much more than it does. Do you 
find the treaty bodies, I mean, some of these nations have 
signed treaties and they do have enforcement. The enforcement 
again is not binding but at least gives a platform to 
articulate the concerns.
    Mr. Khan. In the case of Pakistan, Mr. Chairman, I think, 
absolutely. And in the case of, actually, many countries the 
U.N. can do much more. I mean, I have studied international 
human rights law and really am focused on enforcement 
mechanisms, and I can tell you that the--let us take Pakistan, 
for example.
    They have acceded to the ICCPR and significantly--and this 
is actually a positive step in the State Department; we brief 
the State Department regularly on these issues--withdrew 
reservations to Articles 18, 19, 20 and 27, those all pertain 
to religious freedom. Those reservations were swallowing their 
accession. They are basically saying that we won't protect 
religious freedom if there is a public order and safety 
rationale or some other rationale that is a sufficient enough 
reason for Pakistan not to abide by their international human 
rights commitments. Those are gone.
    And now in Pakistan, the highest, the Pakistan Supreme 
Court in a case in 1993, it is mentioned in my testimony, 
Zaheeruddin, and the Federal Shariat Court, the highest courts 
have said these laws are constitutional. So there is no 
domestic recourse left. And we know that any type of marginal 
reform of the blasphemy laws in Pakistan's Parliament is met 
with stiff resistance and some of the most courageous voices 
are silenced.
    So the international community can hold Pakistan 
accountable under the ICCPR. They have now withdrawn the 
reservations and the Human Rights Council, they can do a lot 
more to hold Pakistan accountable. They can't conceivably have 
ordinance 20 and the anti-blasphemy provisions in section 295-C 
on the book and still say seriously with a straight face that 
they are abiding by international human rights commitments.
    The Universal Periodic Review, as the president of the 
Ahmadiyya Muslim Lawyers Association I submitted a very robust 
submission on the international human rights violations in the 
last review cycle. We have done it in prior cycles as well. And 
I share your view that the submission was quite hard-hitting, 
and I think the nation-states realized some of the questions to 
be asked. But there were some softball questions fielded and 
those were easily, readily dealt with and there were some 
obfuscation of the record on key issues too, and obvious just 
plain denial of the realities of what is happening on the 
ground in Pakistan.
    The Universal Periodic Review is an important process. The 
U.S. Congress can have a role. When the United States is there 
they can ask questions. The representatives from the United 
States should ask very probing questions. The stakeholders can 
submit submissions. The NGOs are permitted to give submissions. 
We routinely do that as independent bodies.
    So absolutely, the U.N. can do a lot more. So I hope that 
the U.N. isn't just perceived as a body that can't be 
effective. I think there is maybe a view of that. I think there 
is a lot of improvement that can be done, but it takes a lot of 
will to focus on what are the existing commitments from these 
countries like Pakistan and how can they be held accountable. 
And I think, frankly, it is in Pakistan's best interest to make 
sure that their withdrawal of reservations is met with 
seriousness in the international body. So I hope, particularly 
on the ICCPR, that there is more that can be done.
    Mr. Bowers. Well, I don't deal directly with the United 
Nations myself so I can only give impressions at a little bit 
of a remove, Mr. Chairman. I would say certainly we would all 
wish that the United Nations could be more effective in many 
different ways. But also though to give credit, it does seem as 
though that the work of the United Nations has been effective, 
I think, in mitigating the severity of what is going on with 
respect to the Baha'is in Iran, and one can partly tell that by 
the violent reactions of Iranian authorities every time there 
is a vote in the U.N. condemning their activities and so on, so 
one can see. And of course their very aggressive fight not to 
have a U.N. Special Rapporteur to be appointed and so on to go 
to Iran.
    So one can see that they are sensitive to even the fact of 
the discussion and these statements and votes that keep coming 
out. But another thing too that may also be important to 
mention here is that from what I understand the work at the 
U.N. also has paved the way for discussions in countries that 
have been slower to respond, or to lend their voices, I should 
say, to the persecution of religious minorities and others 
inside of Iran.
    Mr. Smith. Can I ask you about the effectiveness of the 
U.N. Special Rapporteur on freedom of religion or belief, Mr. 
Bielefeldt, how effective?
    Mr. Khan. I am glad you asked that question. We worked with 
him directly just a few weeks ago. We had a very lengthy 
session and meeting with him in Germany where we talked about 
the situation of Ahmadis in Central Asia, Kazakhstan and 
Kyrgyzstan and that is affecting, as you know, Mr. Chairman, a 
variety of religious communities. He has been quite effective. 
He is very vocal on these issues. He has taken clear stances on 
how religious freedom should be protected. Obviously the 
dynamics are such where it is a complicated relationship in 
terms of his authority, but I think the pronouncements publicly 
and privately have been very encouraging for our community and 
we continue to work with him directly.
    Mr. Smith. Let me ask, if I could, Pastor Fu. It appears 
that there is a surge, the likes of which I have not seen 
before in China, against religious freedom. The demolishment of 
that large church that we all saw----
    Mr. Fu. Sanjiang Church.
    Mr. Smith [continuing]. On YouTube, when it was replayed, 
was almost emblematic or symbolic of the all-out effort that Xi 
Jinping has embarked upon. We are coming up on the 25th 
anniversary of Tiananmen Square. I am very concerned that 
people have forgotten that China could have made a pivot toward 
democracy and freedom and chose tanks and brutality instead.
    But evil need not be forever, and the suffering believers 
in China--and I have met so many, many of them through your 
facilitation, frankly--are absolutely tenacious and courageous 
and long-suffering. And I am wondering what is the mindset of 
the believers of people of various faiths, but you would know 
the Christian folks more than anyone else, are they 
discouraged? Do they feel that they have been abandoned? 
Obviously they look to God for help in sustaining grace and 
courage, but it would appear that the world has forgotten to 
some extent that China is an egregious human rights abuser and 
they stride the world's stage as a superpower as if there is a 
legitimacy to their reign. It is a dictatorship.
    One of the most telling interviews that I have ever seen, 
and the Washington Post correctly pointed it out, when Hu 
Jintao was here he met with President Obama and was asked a 
good question by the Associated Press reporter about human 
rights in China. And Hu Jintao had a little bit of a problem 
with hearing the question or something, it seemed as bogus as a 
$3 bill, and President Obama stepped in and said, well, they 
have a different culture and a different political system.
    And as if to excuse, I mean the people of China know, 
understand and have paid with their blood particularly at 
Tiananmen Square, and all the other dissidents who have 
languished and suffered in prison, including yourself, 
understand what freedom is and want it, and want it 
desperately. The Washington Post did a scathing editorial when 
President Obama said this, and said, and the headline was, 
``President Obama makes Hu Jintao look good on rights'' it was 
President Hu of course. And it was one of the most telling 
editorials, I think, of recent years, to take him to task on 
that. What is the feeling of the believers there?
    Mr. Fu. Yes, the persecution as I just mentioned, it is 
intensifying, and especially after President Xi Jinping took 
power. It seems the real hardliner policy is in place. And not 
only, really, the religious persecution has increased 
dramatically, but across the board other human rights, 
fundamental freedoms, like the freedom of the press.
    A 70-year-old, China's very well-known journalist, Ms. Gao 
Yu was also arrested and being humiliated, even put on the CCTV 
for admitting to leaking a national secret, and in fact just 
leaking, release the Communist Party's secrets to crackdown the 
basic human rights.
    And of course the rule of law has been also seriously 
degraded. We have, of course, read and documented a number of 
lawyers were being detained. They are abused. And just last 
month, four lawyers including lawyer Jiang Tianyong, who 
testified before your committee twice in 2009 for rule of law 
and forced abortion issue, and he and three other fellow 
lawyers last month visited a black jail to represent several 
Falun Gong practitioners who were in that black jail. They were 
all just brutally tortured. And I mean the four lawyers all 
together, combined together, their over 20 ribs were broken 
because of the repeated torture.
    So this is a serious concern. I think, really, it 
represents of course the insecurity of the regime on the one 
hand, and on the other hand it also reflects the so-called, the 
kind of the green light the international community, especially 
I think the U.S. Government has taken, like these unhelpful 
comments. Almost like promoting a value of relativism, like you 
have your culture, I have my culture.
    But human rights and this religious freedom and other 
freedoms are the fundamental freedoms recognized not only just 
American norms, it is by the United Nations and international 
treaties. And China has signed many, and even like freedom of 
religious belief is enshrined in the Chinese Constitution.
    So I think it is a major concern, and I would, I think I 
would advise that we as, of course, as NGO leaders, we will 
never abandon those persecuted faithfuls. Whenever there is a 
case of persecution, we take that seriously. And you as a 
champion of course have relentlessly, of course, by holding 
hearings, press conferences, and issuing press statements.
    And I really want to see the administration, I mean; it is 
not only just the State Department, ask the Embassy, raise a 
case issue, I think from the Secretary of State to the 
President should really take this seriously and make just 
public statements. I think the regime will take that as a 
serious reminder that American and the freedom-loving 
international community do care about them.
    In terms of the feeling of the church, the persecuted 
faithfuls, they were crying out. There is a major storm coming, 
and in the next few months maybe that will more arrests, more 
detention, more torture, but there is also a feeling of a 
revival coming. After all, as we all know, as the Church father 
Tertullian said, ``The blood of the martyrs is the seed of the 
Church.'' And we can anticipate there will be a bigger revival 
among the persecuted churches in China. So thank you.
    Mr. Smith. Let me just ask you. Next week and especially 
the week after, the hope will be that the President and many 
others will speak out strongly 25 years later. My hope is, is 
that the statements that emanate out of Washington, and 
particularly the White House, are not empty calories where 
grandiose statements are made about human rights that are 
meaningless and in no way ding or affect Beijing, because they 
will say he is just doing what he has to do for public 
consumption.
    My hope is that there will be names named, that specific 
instances of religious persecution will be cited, and as 
specific as possible. Because what has happened post-Tiananmen 
Square, in a way, is Tiananmen Square happening over and over 
again, including as you pointed out in your testimony, the 
horrific abuse of forced abortion which is commonplace in China 
today. My hope is that it will be a very meaningful set of 
statements coming out of the White House, State Department, and 
from Members of Congress.
    Let me just ask Mr. Khan, one final question to you. In 
your testimony you talked about Mr. Ahmad who was in police 
custody, and a man walked in who shot, was that man then 
arrested and is he being prosecuted today?
    Mr. Khan. No. At this point in time there has been an 
apprehension of the individual. I think he is going to be 
hopefully prosecuted, but there is no indication, and I haven't 
seen the latest reports in the last 24 to 48 hours because this 
story is fluid, but my sense is or my understanding is he 
hasn't yet been fully dealt with.
    And this wouldn't surprise us because this has happened in 
the past. Why is it so difficult to figure out which 
individuals are responsible for these acts is because they are 
not arrested. The people who blew up 86 Ahmadi Muslims, or 
gunned them down, rather, when they had suicide vests and so 
forth, of the TTP, these individuals, their backgrounds were 
known and they were known at pretty high levels.
    And there was a letter sent by Asthma Jahangir, she was of 
the Human Rights Commission of Pakistan, about an imminent 
attack. But the attacks happened, some police came and they 
were helpful, but there was no prevention and then there was no 
apprehension. So this is a vicious cycle. And in this 
Kafkaesque reality, the perpetrators then act with impunity and 
even get emboldened by their ability to do this under color of 
law and have legal sanctuary. The blasphemy laws permitted and 
the legal apparatus permits it, and yet the victims are made to 
suffer and then the widows and their families as well.
    So we don't expect, we don't hold much hope that there will 
be apprehension of people who commit acts of atrocity against 
Ahmadis. In this instance it was so brazen, we hope at least in 
this case of Mr. Khalil that this individual will be arrested 
and prosecuted. But our hope is that the security apparatus in 
Pakistan at the Federal and provincial level rise up and 
actually take these matters seriously, and that the Federal 
Government at all levels takes it seriously, particularly in 
Punjab where there is the worst violence.
    Mr. Smith. Before I ask you if you have anything final you 
would like to say regarding, because you have said much in your 
testimony, I deeply appreciate it, I would ask unanimous 
consent that the statements from Dr. Maryann Love from Catholic 
University of America be included in the record, as well as 
from Matteo Mecacci.
    We will look to see if some of the photos that you have 
provided, all of you, or any additional extraneous materials 
you would like to add, if they could be included in the record, 
without objection, they will be included. Sometimes photos are 
a little more difficult but we will try.
    And also we are going to keep the record open. There is a 
possibility of receiving testimony from the Reverend Thich 
Quang Do from the Unified Buddhist Church of Vietnam. I 
actually met him when he was under pagoda arrest. He is an 
unbelievably courageous man, like you, and has endured so much. 
We think we will be receiving a testimony from him as well.
    So would anyone like to make any final comment before we 
conclude the hearing?
    Mr. Fu. Just want to mention, when I mentioned this lady, 
her pastor actually is in our midst. That is today, I just want 
to mention that. Pastor Wang Dao, he spent time in prison in 
Guangzhou. That is her pastor, he and his wife, of course, as 
they come over. Yes. Thank you so much.
    Mr. Khan. Thank you for your leadership.
    Mr. Bowers. Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you. And I can assure you, your 
testimonies will be widely disseminated. They will be used by 
not only me but many others to help propel USCIRF. The House is 
not the problem. We are very concerned about the Senate. And I 
have had at least 30 of my bills die in the Senate. I have six 
pending over there right now. Sometimes it is very difficult to 
get bills out of the Senate.
    But the hope is that it will, and it will be done in a 
timely fashion. Because this Commission is among the most 
important, I think, that has ever been created, and as you all 
said, it gives a sense of authority. They are accurate. They 
have excellent staff, great commissioners, now led so 
brilliantly by Dr. George. And it does help not only in foreign 
capitals, believe me, it helps here as well. And the hearing is 
adjourned.
    [Whereupon, at 2:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Material submitted for the record by Pastor Bob Fu, founder and 
                    president, ChinaAid Association

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
